<html>
<title> - NUCLEAR POSTURE REVIEW</title>
<body><pre>[Senate Hearing 111-824]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-824

                         NUCLEAR POSTURE REVIEW

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

         Printed for the use of the Committee on Armed Services



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





        Available via the World Wide Web: http://www.fdsys.gov/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
  63-689 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)






                           C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                         Nuclear Posture Review

                             april 22, 2010

                                                                   Page

Miller, Hon. James N., Principal Under Secretary of Defense for 
  Policy.........................................................     4
Chilton, Gen. Kevin P., USAF, Commander, U.S. Strategic Command..     9
Tauscher, Hon. Ellen O., Under Secretary of State for Arms 
  Control and International Security.............................    13
D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, Department of Energy..................    17
The Nuclear Posture Review Report................................    62

                                 (iii)

 
                         NUCLEAR POSTURE REVIEW

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, Ben Nelson, Udall, Hagan, Burris, Bingaman, 
Kaufman, McCain, Sessions, Chambliss, Thune, Wicker, LeMieux, 
and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Jessica L. Kingston, research assistant.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Christian D. Brose, professional staff member; 
Michael V. Kostiw, professional staff member; and Daniel A. 
Lerner, professional staff member.
    Staff assistants present: Paul J. Hubbard, Jennifer R. 
Knowles, and Christine G. Lang.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn A. Chuhta, assistant to 
Senator Reed; Greta Lundeberg, assistant to Senator Bill 
Nelson; Ann Premer, assistant to Senator Ben Nelson; Patrick 
Hayes, assistant to Senator Bayh; Gordon I. Peterson, assistant 
to Senator Webb; Roger Pena, assistant to Senator Hagan; 
Jonathan Epstein, assistant to Senator Bingaman; Halie Soifer, 
assistant to Senator Kaufman; Rob Soofer, assistant to Senator 
Inhofe; Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Jason Van Beek, assistant to Senator Thune; Erskine W. Wells 
III, assistant to Senator Wicker; and Brian Walsh, assistant to 
Senator LeMieux.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, the Armed Services Committee will hear from James 
Miller, Deputy Under Secretary of Defense for Policy; General 
Kevin Chilton, Commander of the U.S. Strategic Command 
(STRATCOM); Ellen Tauscher, Under Secretary of State for Arms 
Control and International Security; and Thomas D'Agostino, 
Administrator of the National Nuclear Security Administration 
(NNSA). The topic this morning is the recently released Nuclear 
Posture Review (NPR).
    This is the third NPR since 1994, and the first to be 
completely unclassified. I commend each of our witnesses this 
morning for working to achieve that result. An unclassified NPR 
should allow discussions on the role and the future of nuclear 
weapons to be held publicly, which will help to demystify an 
often technically complex subject.
    As the Senate considers the New Strategic Arms Reduction 
Treaty (START), an open discussion on nuclear weapons policy 
will help assure the American people that ratification of this 
new treaty will strengthen U.S. national security and enhance 
U.S. nonproliferation goals.
    There are five key objectives of the new NPR: first, 
preventing nuclear proliferation and nuclear terrorism; second, 
reducing the role of U.S. nuclear weapons and U.S. national 
security strategy; third, maintaining strategic deterrence and 
stability at reduced nuclear force levels; fourth, 
strengthening regional deterrence, and reassuring U.S. allies 
and partners; and fifth, sustaining a safe, secure, and 
effective nuclear arsenal.
    This new NPR allows for continued reductions in deployed 
nuclear weapons, and also lays the foundation for substantial 
future reductions in the total nuclear weapons stockpile. 
Having fewer nuclear weapons reduces the danger that these 
weapons and nuclear materials might fall into the wrong hands. 
Preventing proliferation and nuclear terrorism, and maintaining 
a strong deterrent are all important parts of nuclear policy 
and this NPR.
    In addition to the commitment for modern nuclear weapons 
complex needed to maintain an even smaller total stockpile, 
this NPR makes other significant decisions. It will eliminate 
nuclear Tomahawks and would finally implement a decision from 
the 1994 NPR, to remove multiple warheads from land-based 
intercontinental ballistic missiles (ICBM). This NPR will also 
change the way the United States thinks about nuclear weapons, 
by reducing their role in U.S. policy. It will strengthen 
nonproliferation and take a broader, more balanced approach to 
deterrence. It affirms that the United States will not return 
to nuclear testing, in that there is no technical need and no 
military requirement for a new nuclear weapon. It also 
recognizes that supporting our non-nuclear allies and partners 
is an important element of regional security, and strengthens 
the Nuclear Nonproliferation Treaty (NPT).
    Some think that this NPR does not go far enough down the 
road to zero, while others think the reductions are too 
dramatic, and the policies are unrealistic.
    These are the topics that we'll discuss and debate in the 
coming months as the Senate considers the New START treaty and, 
hopefully, at some not-too-distant point, the Comprehensive 
Test Ban Treaty.
    Just last week, this committee held a hearing on Iran, 
where we discussed that government's refusal to give up its 
nuclear program, in defiance of its international obligations. 
North Korea withdrew from the NPT, demonstrated its nuclear 
weapons capability, and fails to live up to its commitments in 
the Six-Party Talks.
    Intelligence assessments tell us that terrorists continue 
to seek nuclear materials and technologies, and would most 
likely use a nuclear device if they had one. But, with 90 
percent of the world's nuclear weapons, the United States and 
Russia must lead the world in the direction of zero. This NPR 
is the roadmap for the United States to move in that direction, 
which is not only sound policy, but one required by the NPT, to 
which we're a party.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I thank our witnesses for their service to our country and 
for joining us today to discuss this very important issue.
    This month has seen some significant changes to our 
Nation's nuclear policy. Today's hearing on the 2010 NPR is the 
first of a number of important upcoming opportunities to assess 
and review the current and future role of our nuclear 
deterrent. I look forward to engaging with our witnesses today 
and addressing some of the concerns that appear to arise from 
this NPR.
    This year's review appropriately reiterates the widely 
acknowledged need to maintain a credible nuclear deterrent, to 
pursue a sound stockpile management program, to modernize our 
aging nuclear facilities, and to invest in human capital. 
Unfortunately, the NPR seems to limit, inappropriately, the 
ability of our nuclear complex to ensure the highest level of 
safety, security, and reliability.
    In their analysis of the stockpile, the bipartisan Perry-
Schlesinger Strategic Posture Commission recommended that a 
full spectrum of options be available for stockpile 
modernization. The Commission recommended that life-extension 
programs be ``guided by the principle of finding the optimum 
approach for each unique weapon.'' The NPR appears to constrain 
the ability of our scientists to utilize the full range of 
options by asserting that refurbishment and reuse techniques 
are the methods of choice for life extension. Instead, we 
should not rule out any stockpile modernization options that 
are achievable, including replacement, which may be the best 
option in some cases.
    Another concern raised by this NPR is its change to our 
Nation's longstanding nuclear declaratory policy of calculated 
ambiguity, which has been embraced by past administrations on a 
bipartisan basis. This declaratory policy has successfully and 
effectively deterred aggressors by preserving the use of all 
options in response to an attack on the United States or our 
allies. The Perry-Schlesinger Commission advocated maintaining 
this declaratory policy as a ``critical element for reinforcing 
restraint and caution on the part of a potential aggressor.'' 
This administration has now overturned that policy, and I look 
forward to hearing from our witnesses on why they believe that 
less ambiguity, as proposed by the President, will be as, or 
more, effective than the previous policy, and how this makes us 
safer.
    Another concern stems from the assumption made in the NPR 
that the development of conventional capabilities, such as 
Prompt Global Strike, will lead to the reduction of the role 
that nuclear weapons play in our deterrence posture. To be 
sure, conventional weapons can augment or support our 
deterrence posture, but they are no substitute for nuclear 
weapons. Again, I look forward to the witnesses' explanation 
for why this planning assumption was made and why it's 
effective.
    I'm also significantly concerned that no one has yet 
addressed the overall affordability of the course set out in 
this NPR. The cost, alone, for modernizing both the nuclear 
weapons complex and the triad is substantial; and as we move to 
reduce our nuclear stockpile, this modernization effort becomes 
all the more important.
    Factoring in the cost of missile defense and Prompt Global 
Strike, both essential and critical, but also costly programs, 
the overall budget outlook becomes daunting. I look forward to 
discussing the notion of affordability, both in the near-term 
and the long-term, and further exploring how committed this 
administration is to resourcing these costly, albeit essential, 
modernization and development efforts.
    Finally, I would just reiterate that the key test of our 
Nation's credibility on nuclear issues is not whether, or how 
much, we reduce our nuclear arsenal, but whether we meet the 
nuclear proliferation threats posed by regimes like Iran and 
North Korea.
    I agree with the NPR's conclusion that the two primary 
threats to international security are nuclear terrorism and 
nuclear proliferation. Unfortunately, when it comes to Iran and 
North Korea, this administration has little to show for 15 
months of effort. Meeting the proliferation threats posed by 
rogue states like these must be our top priority as we 
determine our nuclear posture and work to shore up the global 
nonproliferation regime. Otherwise, all of our efforts to 
reduce our nuclear arsenal, as well as our reliance on it, will 
be for naught.
    I thank you, Mr. Chairman, and I thank the witnesses.
    Chairman Levin. Thank you very much, Senator McCain.
    We'll start with Secretary Miller.

STATEMENT OF HON. JAMES N. MILLER, PRINCIPAL UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Dr. Miller. Thank you.
    Mr. Chairman, Senator McCain, distinguished members of the 
committee, thank you for the opportunity to testify today. It's 
a pleasure to join my esteemed colleagues in discussing the 
U.S. nuclear policy and capabilities, and to have worked with 
them closely throughout the NPR.
    The 2010 NPR provides a roadmap for implementing the 
President's Prague agenda of reducing the role and numbers of 
nuclear weapons, with the ultimate goal of a world free of 
nuclear weapons. Because we recognize that this goal will not 
be reached quickly, perhaps not in our lifetimes, the NPR 
outlines specific steps needed to sustain a safe, secure, and 
effective nuclear deterrent as long as nuclear weapons exist. 
The fiscal year 2011 budget requests from the Department of 
Defense (DOD), Department of Energy (DOE), and Department of 
State (DOS) are important installments in this long-term 
effort.
    The 2010 NPR identified the most urgent nuclear dangers 
today as nuclear proliferation and nuclear terrorism, and has 
outlined a comprehensive approach to deal with these challenges 
that includes policy initiatives and increased investments in a 
number of areas.
    As the chairman noted, more broadly, the NPR identified 
five key areas and five key objectives for U.S. nuclear policy. 
First, it is a top priority, preventing nuclear proliferation 
and nuclear terrorism. Second, reducing the role of U.S. 
nuclear weapons in our national security strategy. Third, 
maintaining strategic deterrence and stability at reduced 
nuclear force levels. Fourth, strengthening regional deterrence 
and reassuring U.S. allies and partners. Fifth, sustaining a 
safe, secure, and effective nuclear arsenal.
    Given that the committee has received the NPR report, I 
will not summarize all of its conclusions, but will focus my 
remarks on declaratory policy and on the plans for nuclear and 
conventional forces.
    The 2010 NPR aims to make clear to other countries the 
benefits of complying with the NPT, and the potential 
consequences of not doing so. It strengthens the U.S. Negative 
Security Assurance associated with the NPT by stating that: 
``The United States will not use or threaten to use nuclear 
weapons against non-nuclear-weapon states that are party to the 
NPT and in compliance with their nuclear nonproliferation 
obligations.''
    A bit of historical context is useful here. The United 
States first offered a Negative Security Assurance associated 
with the NPT not to use nuclear weapons against non-nuclear-
weapons states in 1978. This pledge was reiterated by 
subsequent administrations in 1995 and in 2002. This NPR 
includes a critical change in this assurance. Unlike previous 
pledges, the revised assurance stipulates that a state must not 
only be party to the NPT, but that it must be in compliance 
with its nuclear nonproliferation obligations. This is a 
determination that will be made by the United States.
    For non-nuclear-weapon states that are in compliance with 
their nuclear nonproliferation obligations, which include the 
vast majority of countries in the world, the United States is 
reiterating and clarifying its longstanding pledge not to use 
or threaten to use nuclear weapons against them.
    At the same time, the NPR is clear that if any such non-
nuclear-weapon states were to make the grave error of attacking 
the United States or allies and partners with chemical or 
biological weapons, it would face a devastating conventional 
military response and their leadership would be held fully 
accountable. This pledge is backed by the most formidable 
military in the world, and the administration is committed to 
not only sustaining, but strengthening, our conventional 
military power.
    The NPR also makes clear that states that do not meet their 
nonproliferation obligations, such as North Korea and Iran, are 
not covered by this Negative Security Assurance. For these 
noncompliant states, and for nuclear-weapon states such as 
Russia and China, U.S. nuclear weapons still play a role in 
deterring, not only nuclear attack, but also conventional 
chemical and biological attack against the United States, our 
allies, and partners.
    These clear declaratory statements strengthen our 
nonproliferation efforts and reinforce our ability to deter 
potential adversaries with precise and credible statements, 
backed by the full strength of the U.S. military.
    One of the first tasks of the NPR, which continued 
throughout the review, was to define positions for the New 
START treaty negotiations, including appropriate limits on 
delivery vehicles and on nuclear warheads, and the DOD NPR team 
reached the following conclusions:
    First, the United States should retain a nuclear triad of 
ICBMs, submarine launched ballistic missiles (SLBM), and dual-
capable heavy bombers under New START treaty.
    Second, as the chairman noted, all U.S. ICBMs should be 
deMIRVed to a single warhead each, in order to reinforce 
strategic stability.
    Third, an ability to upload nondeployed nuclear weapons on 
delivery vehicles should be retained as a hedge against 
technical or geopolitical surprise, and preference should be 
given to bombers and strategic submarines over ICBMs for 
upload.
    The administration will provide additional details on plans 
for U.S. Strategic Forces under the New START treaty soon, when 
we submit a report required by Congress, under section 1251 of 
the 2010 National Defense Authorization Act (NDAA), associated 
with submission of the treaty for advice and consent of the 
Senate.
    The NPR also concluded that the United States should retain 
the ability to provide extended deterrence to allies and 
partners.
    First, we'll retain the capability to forward-deploy U.S. 
nuclear weapons on tactical fighter bombers and dual-capable 
heavy bombers.
    Second, we propose to proceed with full scope life-
extension study and follow-on activities for the B-61 bomb, to 
ensure that first production can occur in 2017.
    Third, we will retire the nuclear sea-launched cruise 
missile, or Tomahawk Land Attack Missile-Nuclear, as a 
redundant capability.
    Fourth, we'll continue our extensive consultations with 
allies and partners to ensure the credibility and effectiveness 
of the U.S. extended deterrence.
    Fifth, decisions about the future of the North Atlantic 
Treaty Organization (NATO) nuclear weapons will be made through 
the NATO processes, and not unilateral decisions. That 
consultative process is now underway.
    I'd like to say just a couple of words about long-range 
strike capabilities, and then conclude.
    Today, the United States has a wide range of non-nuclear 
long-range strike capabilities, including conventional-only and 
dual-capable heavy bombers in both sea-launched and air-
launched conventional cruise missiles. Of these systems, only 
dual-capable heavy bombers are accountable under the New START 
treaty. The NPR concluded that the United States should also 
develop non-nuclear Prompt Global Strike capabilities, and 
should focus such capabilities on regional threats, while not 
undermining strategic stability, vis-a-vis Russia and China. 
Conventional Prompt Global Strike capabilities are allowed 
under the New START treaty.
    In closing, a key premise of the 2010 NPR was that reducing 
nuclear dangers to the United States, including sustaining 
effective deterrence, is a long-term challenge that will 
require support from a long succession of U.S. administrations 
and Congress. Laying the groundwork for a sustainable 
bipartisan consensus was, and is, a central purpose of this 
NPR.
    I'd ask that my prepared statement be entered into the 
record, and I look forward to your questions.
    Thank you.
    [The prepared statement of Dr. Miller follows:]
               Prepared Statement by Dr. James N. Miller
    Mr. Chairman, Senator McCain, distinguished members of the 
committee, thank you for the opportunity to testify today. It is a 
pleasure to join Commander of U.S. Strategic Command, General Kevin 
Chilton, National Nuclear Security Administrator Thomas D'Agostino, and 
Under Secretary of State Ellen Tauscher in discussing U.S. nuclear 
policy and capabilities. I will focus my remarks on the recently 
completed Congressionally-mandated Nuclear Posture Review ( NPR).
    The 2010 NPR provides a roadmap for implementing the President's 
Prague agenda of reducing the role and numbers of nuclear weapons, with 
the ultimate goal of a world free of nuclear weapons. Because this goal 
will not be reached quickly, perhaps not in our lifetimes, the NPR 
outlines the specific steps needed to sustain a safe, secure, and 
effective nuclear deterrent as long as nuclear weapons exist. The 
fiscal year 2011 budget requests from the Departments of Defense and 
Energy demonstrate our commitment to this essential effort.
    The 2010 NPR identifies the most urgent nuclear dangers today as 
proliferation and the potential for nuclear terrorism, and outlines a 
comprehensive approach to cope with these challenges that includes 
policy initiatives and increased investment in a number of areas. More 
broadly, the NPR identifies five key objectives for U.S. nuclear policy 
and posture:

    1.  Preventing nuclear proliferation and nuclear terrorism;
    2.  Reducing the role of U.S. nuclear weapons in U.S. national 
security strategy;
    3.  Maintaining strategic deterrence and stability at reduced 
nuclear force levels;
    4.  Strengthening regional deterrence and reassuring U.S. allies 
and partners; and
    5.  Sustaining a safe, secure, and effective nuclear arsenal.

    Given that the committee has received the NPR report, I will not 
summarize all of its conclusions. I will focus my remarks on preventing 
proliferation and nuclear terrorism, declaratory policy, and force 
structure issues.
         preventing nuclear proliferation and nuclear terrorism
    The 2010 NPR places the prevention of nuclear proliferation and 
nuclear terrorism at the top of the administration's policy agenda. The 
recent Nuclear Security Summit in Washington, DC, the upcoming Nuclear 
Nonproliferation Treaty Review Conference in New York, and our 
continued efforts to reverse the nuclear ambitions of North Korea and 
Iran are critical to this effort and to U.S. national security. The 
administration has proposed significantly increased funding in fiscal 
year 2011 to reduce proliferation risks, and to improve our 
capabilities to detect and interdict smuggled nuclear materials or 
weapons. Examples include:

        <bullet> Expanding funding for the Cooperative Threat Reduction 
        program, including an increase of $75 million in fiscal year 
        2011 to address nuclear security efforts worldwide;
        <bullet> Increasing funding in fiscal year 2011 for the 
        National Nuclear Security Administration's nuclear 
        nonproliferation programs to $2.7 billion, an increase of more 
        than 25 percent;
        <bullet> Enhancing U.S. Special Operations Command's ability to 
        conduct counter-WMD operations by increasing funding by $60 
        million in fiscal year 2011; and
        <bullet> Improving capabilities for national technical nuclear 
        forensics technologies and the fielding of new capabilities for 
        ground and air collection. This includes increased funding 
        requests for DOD and DOE.
                        u.s. declaratory policy
    The 2010 Nuclear Posture Review makes clear the benefits to other 
states of complying with the Nuclear Non-Proliferation Treaty (NPT)--
and the potential consequences of not doing so. It strengthens the U.S. 
``negative security assurance'' associated with the NPT, by stating 
that:

          The United States will not use or threaten to use nuclear 
        weapons against non-nuclear weapons states that are party to 
        the NPT and in compliance with their nuclear nonproliferation 
        obligations.

    The United States first offered a ``negative security assurance'' 
associated with the NPT in 1978, which was reiterated by subsequent 
administrations in 1995 and 2002. This NPR provides a critical change. 
The previous U.S. negative security assurance had a caveat focused on 
the Warsaw Pact, stipulating that the assurance would not apply to non-
nuclear weapons states allied with a nuclear weapons state.\1\ With the 
Warsaw Pact long gone, this caveat is no longer needed. In its place, 
the revised assurance provided in the NPR stipulates that a state must 
not only be a party to the NPT, but also that it must be in compliance 
with its nuclear non-proliferation obligations--a determination that 
will be made by the United States. This new policy makes clear that 
signing the NPT is necessary but not sufficient: states that do not 
meet their nonproliferation obligations, such as North Korea and Iran 
today, are not covered by the U.S. negative security assurance.
---------------------------------------------------------------------------
    \1\ In 1978, at the first U.N. special session on disarmament, 
Secretary of State Cyrus Vance stated: ``The United States will not use 
nuclear weapons against any non-nuclear-weapon state party to the NPT 
or any comparable internationally binding commitment not to acquire 
nuclear explosive devices, except in the case of an attack on the 
United States, its territories or armed forces, or its allies, by such 
a state allied to a nuclear weapon state, or associated with a nuclear-
weapon state in carrying out or sustaining the attack.'' Similar public 
statements were made by subsequent U.S. administrations in 1995 and 
2002.
---------------------------------------------------------------------------
    Recognizing that effective deterrence is based on both credibility 
and capability, the NPR makes clear that any use of chemical and 
biological weapons (CBW) by non-nuclear weapons states in compliance 
with their nuclear non-proliferation obligations face a highly credible 
and extremely capable U.S. conventional response. It affirms that:

          . . . any state eligible for the assurance that uses chemical 
        or biological weapons against the United States or its allies 
        and partners would face the prospect of a devastating 
        conventional military response--and that any individuals 
        responsible for the attack, whether national leaders or 
        military commanders, would be held fully accountable.

    This pledge is backed by the most formidable military in the world, 
and the administration is committed to not only sustaining but 
strengthening our conventional military power. In addition to ongoing 
investments, DOD is currently studying potential additional 
improvements to long-range strike capabilities, with specific proposals 
planned in the fiscal year 2012 budget request.
    Given the catastrophic potential of biological weapons and the 
rapid pace of bio-technology development, the NPR notes that the United 
States reserves the right to make any future adjustment in declaratory 
policy that may be warranted by the evolution and proliferation of the 
biological weapons threat and U.S. capacities to counter that threat.
    For nuclear weapons states, and states not in compliance with their 
non-proliferation obligations, the NPR makes clear that U.S. nuclear 
weapons still play a role in deterring not only nuclear attack, but 
also conventional or CBW attack against the United States or its allies 
and partners. As Secretary of Gates noted recently, for states such as 
North Korea and Iran, ``all options are on the table.''
    Finally, to address the potential nexus of terrorists and weapons 
of mass destruction, the NPR renews the U.S. commitment:

          . . . to hold fully accountable any state, terrorist group, 
        or other non-state actor that supports or enables terrorist 
        efforts to obtain or use weapons of mass destruction, whether 
        by facilitating, financing, or providing expertise or safe 
        haven for such efforts.

    Nuclear weapons have not been used in conflict since 1945, and it 
is strongly in the interests of the United States that this nearly 65-
year record of nuclear non-use continue forever. This NPR acknowledges 
the reality that the United States would use nuclear weapons only in 
extreme circumstances to protect our vital interests or those of our 
allies and partners.
    These changes in U.S. declaratory policy reinforce our 
nonproliferation efforts at a critical juncture, while simultaneously 
maintaining and indeed strengthening deterrence of attacks on ourselves 
or our allies and partners.
                       strategic force structure
    One of the first tasks of the NPR, which continued throughout the 
review, was to define positions for the New START treaty negotiations. 
The DOD-led NPR team reached the following conclusions about U.S. 
strategic nuclear force structure:

        <bullet> The United States should retain a nuclear Triad of 
        ICBMs, SLBMs, and dual-capable heavy bombers under New START 
        treaty, in order to preserve strategic stability and hedge 
        against any unexpected technical problems or operational 
        vulnerabilities in one leg of the Triad. The fiscal year 2011 
        budget request includes funding for each leg of the triad.
        <bullet> All U.S. ICBMs should be ``deMIRVed'' to a single 
        warhead each, in order to reinforce strategic stability.
        <bullet> An ability to ``upload'' non-deployed nuclear weapons 
        on delivery vehicles should be retained as a hedge against 
        technical or geopolitical surprise. Preference will be given to 
        upload capacity for bombers and strategic submarines.

    The Secretary of Defense, the Joint Chiefs of Staff, and General 
Chilton supported New START treaty reductions in deployed warheads, and 
limits on deployed as well as non-deployed strategic delivery vehicles 
(SDVs). New START treaty limits were validated by rigorous analysis in 
the NPR.
    The administration intends to provide additional details for 
strategic forces under New START treaty in the report required by 
section 1251 of the 2010 National Defense Authorization Act (NDAA). 
This report will include a 10-year estimate of budgetary requirements 
for sustaining delivery platforms, the nuclear weapons stockpile, and 
the nuclear weapons complex.
                      nonstrategic nuclear weapons
    The NPR concluded that as long as nuclear weapons exist, the United 
States should retain the capability to ``extend'' nuclear deterrence to 
allies and security partners. Its recommendations:

        <bullet> Retain the capability to forward-deploy U.S. nuclear 
        weapons on tactical fighter-bombers and dual-capable heavy 
        bombers.
        <bullet> Proceed with full scope life extension study and 
        follow-on activities for the B-61 bomb to ensure first 
        production begins in fiscal year 2017.
        <bullet> Retire the nuclear sea-launched cruise missile (TLAM-
        N), as a redundant capability.
        <bullet> Continue and expand consultations with allies and 
        partners to address how to ensure the credibility and 
        effectiveness of the U.S. extended deterrent.
        <bullet> Decisions about the future of NATO nuclear weapons 
        should be made through NATO processes, and not unilateral 
        decisions.
               non-nuclear long-range strike capabilities
    The administration is currently examining the appropriate mix of 
non-nuclear long-range strike capabilities over the long-term. Today, 
these capabilities include conventional-only and dual-capable heavy 
bombers, and both sea-launched and air-launched conventional cruise 
missiles. Of these systems, only dual-capable bombers are accountable 
under New START treaty. NPR analysis concluded the United States should 
develop non-nuclear Prompt Global Strike capabilities, which are 
allowed under the New START treaty--and should focus such capabilities 
on regional threats while not undermining strategic stability with 
Russia or China.
                toward a sustainable long-term approach
    A key premise of the 2010 NPR was that an effective national 
strategy for reducing nuclear dangers and sustaining the U.S. nuclear 
deterrent are long-term challenges that will require support from a 
long succession of U.S. administrations and Congresses. Laying the 
groundwork for a sustainable bipartisan consensus is a central purpose 
of this NPR.

    Chairman Levin. All these statements will be made part of 
the record.
    Next, General Chilton.

   STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Chilton. Thank you, Chairman Levin, Ranking Member 
McCain, and members of the committee. Thank you for the 
opportunity to meet with you today. It's a pleasure to join my 
distinguished colleagues here, in this panel.
    STRATCOM was closely consulted throughout the development 
of the NPR and during negotiations on the New START treaty, and 
I look forward to discussing them with you today.
    I would like to note at the outset how proud I am of the 
extraordinary work that STRATCOM performed in support of both 
of these efforts. We have an amazing team in Omaha, and their 
diligence, expertise, and tireless work continue to ensure our 
ability to deliver global security for America.
    The NPR reflects a current assessment of the global 
security environment, one which is markedly, but not entirely, 
different from the one we faced in the Cold War. It recognizes 
the need to confront global threats, including nuclear dangers, 
through the twin prongs of deterrence and nonproliferation. The 
NPR includes several key recommendations that will serve to 
both sustain and strengthen STRATCOM's ability to conduct our 
deterrence mission.
    Specifically, the NPR recommends moving forward with a 
number of nuclear enterprise sustainment projects, including 
strengthening our nuclear command-and-control structure; 
continuing development and deployment of our triad of delivery 
systems; maintaining a safe, secure, and effective stockpile; 
and revitalizing the NNSA's aging infrastructure.
    America's triad of diverse and complementary delivery 
system provides unique synergies that make our deterrent highly 
credible and resilient in the face of a variety of potential 
technological and geopolitical developments. The NPR endorses 
DOD's efforts to explore future triad systems, specifically to 
extend the Minuteman III ICBM through 2030 and conduct studies 
now to inform decisions on a follow-on ICBM; to replace the 
Ohio-class ballistic missile submarine at the existing ships' 
end of life; and to study future long-range bomber 
capabilities.
    It also supports moving forward with full-rate production 
for the W76-1 warhead for our submarine leg of the triad; full-
scope non-nuclear, and, importantly, nuclear, life extension of 
the B-61 bomb to sustain its strategic deterrence and extended 
deterrence roles; and  initiating  studies  to  develop  life-
extension  options  for  the  W-78 ICBM warhead, including the 
possibility of also adapting the resulting warhead for SLBMs, 
and thereby reducing the number of warhead types.
    Additionally, the NPR and the President's budget recognize 
the need to improve the Nation's nuclear infrastructure and 
address the challenges of human capital recruitment, 
development, and sustainment. These investments are required in 
order to confidently reduce the overall U.S. stockpile while 
sustaining the credibility of our nuclear stockpile, which is 
absolutely fundamental to nuclear deterrence.
    Investments that revitalize the NNSA's aging infrastructure 
and intellectual capital strengthen our security with the 
facilities and the people needed to address technological 
surprises, geopolitical changes, and a range of cutting-edge 
national security challenges. The administration's request for 
a 13 percent increase in NNSA funding for fiscal year 2011 is 
an essential first step in this process.
    With regard to the New START treaty, the nuclear enterprise 
remains, today and for the foreseeable future, the foundation 
of U.S. deterrence strategy and defense posture. As the 
combatant command responsible for executing strategic 
deterrence operations, planning for nuclear operations, and 
advocating for nuclear capabilities, at STRATCOM we are keenly 
aware of how force posture and readiness changes can affect 
deterrence, assurance, and overall strategic stability. The New 
START treaty agreement, in my view, retains the military 
flexibility necessary to ensure each of these for the period of 
the treaty.
    In support of the New START treaty negotiation effort, 
STRATCOM analyzed the required nuclear weapons and delivery 
vehicle force structure and posture to meet current guidance, 
and provided options for considerations by DOD. This rigorous 
approach, rooted in both deterrence strategy and assessment of 
potential adversary capabilities, supports both the agreed-upon 
reductions in the New START treaty and recommendations in the 
NPR.
    In closing, every day STRATCOM remains focused on providing 
the President, and future presidents, with the options and 
flexibility needed for deterrence. Today, our deterrent is 
safe, secure, and effective; our forces are trained and ready; 
and STRATCOM is faithfully and fully carrying out its mission, 
each and every day. I am confident that the NPR and New START 
treaty outline an approach that continues to enable the men and 
women of STRATCOM to deliver global security for America, today 
and in the future.
    Thank you again for the opportunity to testify before this 
committee, and I look forward to your questions.
    [The prepared statement of General Chilton follows:]
           Prepared Statement by Gen. Kevin P. Chilton, USAF
                              introduction
    Chairman Levin, Ranking Member McCain, and members of the 
committee, thank you for the opportunity to meet with you today. U.S. 
Strategic Command (STRATCOM) was closely consulted throughout the 
development of the Nuclear Posture Review (NPR) and during negotiations 
on the New Strategic Arms Reduction Treaty (START), and I look forward 
to discussing them with you today. I would like to note at the outset 
how proud I am of the extraordinary work the Command performed in 
support of these efforts. We have an amazing team, and their diligence, 
expertise, and tireless work continue to ensure our ability to deliver 
global security for America.
                         nuclear posture review
    The NPR reflects a current assessment of the global security 
environment, one which is markedly, but not entirely, different than 
the one we faced in the Cold War. It recognizes the need to confront 
global threats, including nuclear dangers, through the twin prongs of 
deterrence and nonproliferation. The NPR includes several key 
recommendations that will serve to both sustain and strengthen 
STRATCOM's ability to conduct our deterrence mission
    Specifically, the NPR recommends moving forward with a number of 
nuclear enterprise sustainment projects, including strengthening our 
nuclear command and control structure; continuing development and 
deployment of our triad of delivery systems; maintaining a safe, 
secure, and effective stockpile; and revitalizing the National Nuclear 
Security Administration's aging infrastructure. America's triad of 
diverse and complementary delivery systems provides unique synergies 
that make our deterrent highly credible and resilient in the face of a 
variety of potential technological and geopolitical developments. The 
NPR endorses DOD efforts to explore future triad systems, specifically 
to extend the Minuteman III ICBM through 2030 and conduct studies now 
to inform decisions on a follow-on ICBM; to replace the Ohio-class SSBN 
at the existing ships' end of life; and to study future long-range 
bomber capabilities. It also supports moving forward with full-rate 
production for the W76-1 warhead for our submarine leg of the triad; 
full-scope (nuclear and non-nuclear) life extension of the B61 bomb to 
sustain its strategic deterrence and extended deterrence roles; and 
initiating studies to develop life extension options for the W78 ICBM 
warhead, including the possibility of also adapting the resulting 
warhead for sea launched ballistic missiles and thereby reducing the 
number of warhead types.
    Additionally, the NPR and the President's Budget recognize the need 
to improve the Nation's nuclear infrastructure and address the 
challenges of human capital recruitment, development, and sustainment. 
These investments are required in order to confidently reduce the 
overall U.S. stockpile while sustaining the credibility of our nuclear 
stockpile, which is fundamental to effective deterrence. Investments 
that revitalize NNSA's aging infrastructure and intellectual capital 
strengthen our security with the facilities and people needed to 
address technological surprises, geopolitical change, and a range of 
cutting-edge national security challenges. The administration's request 
for a 13 percent increase in NNSA funding for fiscal year 2011 is an 
important first step in this process.
                            new start treaty
    The nuclear enterprise remains, today and for the foreseeable 
future, the foundation of U.S. deterrence strategy and defense posture. 
As the combatant command responsible for executing strategic deterrence 
operations, planning for nuclear operations, and advocating for nuclear 
capabilities, we are keenly aware of how force posture and readiness 
changes can affect deterrence, assurance, and overall strategic 
stability. The New START treaty agreement, in my view, retains the 
military flexibility necessary to ensure each of these for the period 
of the treaty.
    In support of the New START treaty negotiation effort, STRATCOM 
analyzed the required nuclear weapons and delivery vehicle force 
structure and posture to meet current guidance, and provided options 
for consideration by DOD. This rigorous approach, rooted in both 
deterrence strategy and assessment of potential adversary capabilities, 
supports both the agreed-upon reductions in New START treaty and 
recommendations in the NPR.
                               assessment
    In Prague last year, President Obama emphasized that, ``As long as 
these weapons exist, the United States will maintain a safe, secure, 
and effective arsenal to deter any adversary, and guarantee that 
defense to our allies . . . `` Meeting these demanding goals means that 
a strong and enduring deterrence enterprise remains indispensable to 
U.S. and international security. Accordingly, STRATCOM's contributions 
to both the NPR and New START treaty focused on ensuring America's 
ability to continue to deter potential adversaries, assure our allies, 
and sustain strategic stability for as long as nuclear weapons exist. 
Based on our analysis and through continued discussions with Department 
of Defense leadership, my view is that these documents and associated 
budgetary investments continue to support these deterrence 
requirements, and that the New START treaty agreement warhead and 
platform numbers provide appropriate military flexibility.
    Finally, to ensure all necessary elements of a safe, secure, and 
reliable deterrence enterprise, including weapons, delivery systems, 
warning and communications capabilities, and their supporting human 
capital and technological infrastructures, we must make sustained 
investments to adequately preserve our capabilities for the foreseeable 
future. In order to sustain the deterrent and implement the NPR, we 
must make long-term investments that begin with several increases 
outlined in the President's fiscal year 2011 budget. These investments 
are not only important--they are essential.
                                closing
    Every day, STRATCOM remains focused on providing the President and 
future presidents with the options and flexibility needed to deter and 
respond to threats to our Nation and its allies. Today, our deterrent 
is safe, secure, and effective; our forces are trained and ready; and 
the Command is faithfully and fully carrying out its mission each and 
every day. I am confident that the NPR and New START treaty outline an 
approach that continues to enable the men and women of STRATCOM to 
deliver global security for America today and in the future. Thank you 
again for the opportunity to testify before this committee.

    Chairman Levin. Thank you so much, General Chilton.
    Secretary Tauscher, it's always great to see you back in a 
congressional setting. It just warms my heart to see you here, 
and we hope you're happy in your relatively new home. I suppose 
it's not so new anymore to you.
    Ms. Tauscher. Well, it's been almost a year, Senator. But, 
thank you very much, Chairman Levin. It's an honor to be back 
here.
    Chairman Levin. Secretary Tauscher.

 STATEMENT OF HON. ELLEN O. TAUSCHER, UNDER SECRETARY OF STATE 
          FOR ARMS CONTROL AND INTERNATIONAL SECURITY

    Ms. Tauscher. Chairman Levin, Ranking Member McCain, and 
distinguished members of the Senate Armed Services Committee, 
thank you for the opportunity to discuss DOS's role in 
protecting the United States and our allies from today's most 
pressing threats. I am honored to appear today with my 
distinguished colleagues.
    Last year, President Obama outlined several steps to 
strengthen our national security by reducing the role and 
numbers of nuclear weapons. In the past months we have advanced 
that agenda by releasing the NPR, signing the New START treaty, 
and hosting the Nuclear Security Summit. Let me say a few words 
about the New START treaty and missile defenses.
    I spent much of March in Geneva, to help conclude the New 
START treaty. It will enhance our security by reducing and 
limiting the U.S. and Russian strategic nuclear forces. Those 
limits were guided by rigorous analysis in the NPR.
    The new treaty will promote strategic stability by ensuring 
transparency and predictability. It will advance our 
nonproliferation agenda by demonstrating that we are meeting 
our NPT obligations.
    The New START treaty does not constrain U.S. missile 
defense programs. The United States will continue to improve 
our missile defenses, as needed, to defend the U.S. Homeland, 
our deployed forces, and our allies and partners.
    Russia's unilateral statement on missile defense is not 
legally binding. It won't constrain U.S. missile defense 
programs. As the administration's Ballistic Missile Defense 
(BMD) Review and our budget plans make clear, we will deploy 
the most effective missile defense systems possible, and the 
New START treaty does not impose any additional cost or 
inconvenience to those efforts.
    At this time, Mr. Chairman, I would ask permission to 
submit, for the record, the U.S. and Russian unilateral 
statements on missile defenses associated with the New START 
treaty.
    Chairman Levin. That will be made part of the record.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Ms. Tauscher. Thank you, sir.
    In addition to reaffirming our commitment to missile 
defenses, the NPR also supports the goal of bolstering 
nonproliferation. We want to give more incentive to non-nuclear 
states not to seek or acquire nuclear weapons. So, we updated 
our Negative Security Assurance to make it clear that non-
nuclear-weapon state parties to the NPT who comply with their 
nuclear nonproliferation obligations, do not have to fear a 
U.S. nuclear attack.
    I want to clarify what this new Negative Security Assurance 
does, and does not, do. For non-nuclear-weapon states to the 
NPT, in compliance with their nuclear nonproliferation 
commitments, we are removing only the possibility of nuclear 
retaliation. For such states, we retain the prospect of using 
devastating conventional force to deter and respond to any 
aggression, especially if they were to use chemical or 
biological weapons. No one should doubt our resolve to hold 
accountable those responsible for such aggression, whether 
those giving the orders or carrying them out.
    Deterrence depends on the credibility of response. A 
massive and potential conventional response to non-nuclear 
aggression is highly credible. We also reserve the right to 
readjust the Negative Security Assurance, if warranted, by the 
evolution and proliferation of biological weapons and their 
threat. The updated Negative Security Assurance does not alter 
our current policy on the use of nuclear weapons toward 
nuclear-armed states or non-nuclear-weapon states not in 
compliance with the NPT and their nuclear nonproliferation 
obligations, such as North Korea and Iran. In other words, for 
this group of states, we have retained calculated ambiguity.
    But, I want to stress that the NPR states that the United 
States would only consider the use of nuclear weapons in 
extreme circumstances to defend the vital interests of the 
United States or its allies and partners.
    Nuclear weapons have not been used in nearly 65 years. The 
bar for their use is high, and this NPR recognizes that fact. 
It is in the U.S. interest, and that of all other nations, that 
the long record of nuclear non-use be extended forever.
    Let me close by noting that former Secretaries of Defense 
William Perry and Jim Schlesinger, the leaders of the 
Bipartisan Strategic Posture Commission, wrote, recently, that 
the NPR approach on declaratory policy was sensible. They 
concluded that the NPR provides a comprehensive and pragmatic 
plan for reducing nuclear risk to the United States.
    Mr. Chairman and Ranking Member McCain, I look forward to 
working with this committee and the Senate on these important 
matters, and I look forward to answering any questions you 
might have.
    [The prepared statement of Ms. Tauscher follows:]
              Prepared Statement by Hon. Ellen O. Tauscher
    Chairman Levin, Ranking Member McCain, and distinguished members of 
the Senate Armed Services Committee, thank you for the opportunity to 
discuss the State Department's shared role in protecting the United 
States and our allies from today's most pressing threats. I am honored 
to appear with my colleagues Jim Miller, Tom D'Agostino, and General 
Chilton.
    President Obama outlined several concrete steps last year in a 
speech in Prague to strengthen our national security by reducing the 
role and numbers of nuclear weapons.
    In the past few weeks, the Obama administration has advanced some 
of those goals even as we reaffirm our commitment to maintain a safe, 
secure, and effective deterrent to protect the United States and our 
allies so long as nuclear weapons exist.
    Last week, the President brought together 46 world leaders to 
advance his goal of securing all vulnerable nuclear material over the 
next 4 years. At the Nuclear Security Summit, President Obama worked 
with allies and partners to help secure vulnerable nuclear material and 
prevent nuclear smuggling.
    Earlier this month, President Obama and President Medvedev signed 
the New START treaty, which upon entry into force will make verifiable 
and mutual cuts in the U.S. and Russian strategic nuclear arsenals.
    Finally, the Obama administration issued the Nuclear Posture 
Review, which we are going to discuss today.
    This review constitutes a clear break from past reviews, both in 
terms of process and scope. The administration took a broad, whole-of-
government approach to addressing our nuclear policy and identifying 
concrete steps to enhance our national security.
    The Department of Defense led the Nuclear Posture Review (NPR), but 
for the first time the Department of State fully participated in 
discussing the issues and making recommendations to the President.
    For the first time, the NPR is an unclassified document. There is 
no classified version.
    I want to address the diplomatic implications of the Nuclear 
Posture Review as well as the rationale behind some of the most 
discussed issues, including the updated Negative Security Assurance. 
But I first want to say a few words about the New START treaty and how 
it relates to the NPR.
    The United States and Russia can safely reduce our nuclear forces 
because the threat environment has changed. The relationship between 
the United States and Russia has improved and today's most pressing 
nuclear threats come from terrorists and additional countries seeking 
nuclear weapons. A large-scale nuclear attack is no longer the most 
pressing threat. The conclusions of our recent NPR reflect that 
reality.
    I spent much of March at the table in Geneva to help conclude the 
New START treaty. It will improve U.S. and international security by 
reducing and limiting U.S. and Russian strategic nuclear forces. It 
will promote strategic stability by ensuring transparency and 
predictability regarding U.S. and Russian strategic nuclear forces over 
the life of the Treaty. It will advance our nuclear nonproliferation 
agenda.
    The U.S. push for meaningful, lower limits on deployed warheads and 
their delivery vehicles and launchers was guided by rigorous analysis 
in the early months of the NPR. The Treaty's verification regime will 
provide each side confidence that the other is upholding its 
obligations. The new Treaty gives our military the flexibility to 
structure, deploy, and maintain our forces in ways that best meet U.S. 
national security interests.
    The Treaty does not constrain U.S. missile defense programs or 
long-range conventional strike capabilities.
    The United States will continue to improve our missile defenses, as 
needed, to defend the U.S. homeland, our deployed forces, and our 
allies and partners. Russia's unilateral statement on missile defense 
is not an integral part of the New START treaty. It's not legally 
binding. It won't constrain U.S. missile defense programs. As the 
administration's Ballistic Missile Defense Review and our budget plans 
make clear, we will deploy the most effective missile defenses 
possible, and the New START treaty does not impose any additional cost 
or inconvenience to those efforts.
    Of course, under the new Treaty, the United States will continue to 
maintain a safe, secure, and effective strategic nuclear force to 
protect ourselves and our allies and partners.
    The President also set forth a goal to bolster our nonproliferation 
efforts and the NPR identifies many of the steps this administration is 
taking and will pursue to achieve that objective. One of the ways to do 
that is to show non-nuclear weapon states that there are security 
benefits to complying with the Nuclear Nonproliferation Treaty (NPT) 
and other nonproliferation obligations.
    We want to reinforce and enhance the global nonproliferation regime 
and to give greater incentives to non-nuclear states not to seek or 
acquire nuclear weapons. To do this, we have updated our Negative 
Security Assurance to make it clear that non-nuclear weapon states 
party to the NPT who abide by their nuclear nonproliferation 
obligations do not have to fear a nuclear attack from the United 
States.
    Some have suggested that the new policy might lead some states to 
be less fearful of the consequences of using chemical and biological 
weapons against us.
    Others have alleged that the new policy takes options off of the 
table to deal with states like Iran or North Korea, as well as nuclear-
armed states.
    Let me address both starting with the first critique. For non-
nuclear-weapon states-parties to the NPT in compliance with their 
nuclear nonproliferation commitments, we are removing only the 
possibility of nuclear retaliation. We retain the option and 
willingness to use devastating conventional force to deter and respond 
to any aggression, especially with chemical or biological weapons, 
against the United States, our forces, or our allies and partners by 
such states.
    No one should doubt the resolve and conventional military 
capabilities of the United States to respond to such aggression with 
devastating effect and to hold accountable those responsible whether 
national leaders giving the orders or military officers carrying them 
out. Deterrence depends on the credibility of a possible response. A 
massive and potent U.S. conventional response to such non-nuclear 
aggression is highly credible. By reducing unnecessary ambiguity in our 
declaratory policy, we lose little if nothing in terms of our 
capabilities or our deterrent posture, and gain a critical tool in 
pursuing a more robust and effective nonproliferation system.
    Furthermore, we prudently reserve the right to readjust the 
Negative Security Assurance if warranted by the future evolution and 
proliferation of the biological weapons threat and U.S. capacities to 
counter that threat.
    Second, the updated Negative Security Assurance does not alter our 
current policy on the use of nuclear weapons toward nuclear-armed 
states or states not party to the NPT or not in compliance with their 
nuclear nonproliferation obligations, such as North Korea and Iran. In 
other words, for this group of states, we have left all options on the 
table.
    I want to stress that our updated assurance does not suggest an 
increased threat of using nuclear weapons against countries not covered 
by this pledge. In the NPR, we state the United States would only 
consider the use of nuclear weapons in extreme circumstances to defend 
the vital interests of the United States or its allies and partners.
    Nevertheless, there remains a narrow range of contingencies in 
which U.S. nuclear weapons may still play a role in deterring a 
conventional, chemical, or biological attack against the United States 
or its allies and partners. We therefore are not prepared to adopt a 
policy declaring that the ``sole purpose'' of nuclear weapons is to 
deter nuclear attack. But we will work toward creating the conditions 
that would enable such a policy to be safely adopted. There is no 
timetable for such a step and, as President Obama has said, while we 
move forward on our vision of a world without nuclear weapons, we must 
confront the world as it is.
    Nuclear weapons have not been used in nearly 65 years. The bar for 
their use is high and this NPR recognizes and seeks to reinforce that 
fact. It is in the U.S. interest and that of all other nations that the 
long record of nuclear non-use be extended forever.
    Let me close on this issue of declaratory policy by noting that 
former Secretaries of Defense William Perry and Jim Schlesinger, the 
leaders of the bipartisan Strategic Posture Commission, said the NPR 
approach was ``a sensible variation on a theme that the United States 
should support nonproliferation while preserving deterrence for itself 
and its allies.''
    In general, they noted that the NPR was ``compatible'' with their 
commission's recommendations and that the review provides a 
``comprehensive and pragmatic plan for reducing nuclear risks to the 
United States.''
    Our commitment to defend our national security interests and our 
allies and partners in Europe, the Pacific and elsewhere has never been 
stronger.
    In this regard, the NPR reaffirms the principle of close 
cooperation with our allies around the world and maintains our firm 
commitment to mutual security.
    We will work with our partners to reinforce regional security 
architectures, such as missile defenses and other conventional military 
capabilities.
    I want to repeat what I said earlier, the United States will 
continue to maintain a safe, secure, and effective nuclear deterrent 
for ourselves and our allies so long as these weapons exist anywhere in 
the world.
    Mr. Chairman and Ranking Member McCain, I look forward to working 
with this committee and the Senate on these important matters.
    Thank you for holding this important hearing and I look forward to 
any questions you might have for me.

    Chairman Levin. Thank you so much, Secretary Tauscher.
    Now, Administrator D'Agostino.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
     NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. D'Agostino. Thank you, Mr. Chairman, and members of the 
committee.
    I'm very pleased to appear before you today with such a 
distinguished panel as my colleagues here, General Chilton, the 
Honorable Ellen Tauscher, and Dr. Jim Miller. My remarks will 
focus on the DOE's equities included in the NPR.
    NNSA is actively engaged in direct support of the first NPR 
objective, preventing nuclear proliferation and nuclear 
terrorism. The most important steps we can take to keep 
terrorists from developing and using an improvised nuclear 
device or radiological ``dirty bomb'' is to prevent them from 
acquiring nuclear material. This job is not new to the NNSA. We 
have led this effort, over several years, and now we are 
accelerating and broadening the scope of these efforts.
    Current NNSA programs include securing nuclear materials, 
technology, and expertise, including the most vulnerable 
nuclear materials worldwide within 4 years; disposing of excess 
U.S. and international fissile materials; strengthening the 
international safeguard system by developing new safeguards, 
technologies, expertise, policies, concepts, and partnerships; 
developing an active nuclear and radiological security dialogue 
and cooperation with key domestic and international partners; 
and developing highly sensitive and wide-area nuclear material 
detection technologies.
    The NNSA is also actively engaged in direct support of the 
fifth NPR objective: sustaining a safe, secure, and effective 
nuclear arsenal. For more than 65 years, our program has been 
able to do just that; assure the Nation that the nuclear 
weapons stockpile is safe, secure, and effective, and meeting 
the nuclear deterrent needs of the United States.
    To that end, the United States will not conduct underground 
nuclear testing; we will not develop new nuclear warheads for 
new missions; we will study options for ensuring the safety, 
security, and effectiveness of the nuclear warheads, on a case-
by-case basis.
    Applying these principles, the NNSA will fully fund the 
ongoing life-extension program for the W76 submarine-based 
warhead, and the full-scope life-extension study and follow-on 
activities for the B-61 bomb. We will participate with the 
Nuclear Weapons Council, as well, on a new study of life-
extension options for the W-78 ICBM warhead.
    The NPR also concluded that the NNSA needed to recapitalize 
the aging infrastructure and to renew our human capital: the 
critical cadre of scientific, technical, and engineering 
experts who carry out our stockpile management work and support 
other vital nuclear security missions. To that end, the NNSA 
will strengthen the science, technology, and engineering base, 
including supporting computational and experimental 
capabilities needed for weapon-system life extensions, the 
weapon surety work, certification without nuclear testing, and 
providing annual stockpile weapon surveillance.
    The NNSA will also fund two key research--or, two key 
facility projects, the Chemistry and Metallurgy Research 
Replacement Project at Los Alamos National Laboratory, for work 
on plutonium to replace the existing 58-year-old facility, and 
a Uranium Processing Facility at the Y-12 Plant in Oak Ridge, 
TN.
    The NPR also sustains the strategic triad. This drives the 
recent DOD decision to recapitalize the sea-based strategic 
deterrent. The Ohio-class ballistic missile submarines, the 
most survivable leg of our Nation's deterrent, are reaching the 
end of their operational life. In support of the NPR, the Naval 
Reactors Program will continue reactor plant design and 
development efforts for the procurement of long-lead reactor 
plant components, in support of Navy procurement of the first 
Ohio-class submarine replacement.
    Responsible stockpile management requires not only the 
supporting infrastructure, but also a highly capable workforce 
with the specialized skills needed to sustain the deterrent and 
to support the President's nuclear security agenda.
    The NPR noted the importance of recruiting and retaining 
the human capital needed in the NNSA for the nuclear security 
missions. In order to succeed in these missions, we need to be 
able to recruit and retain the next generation of nuclear 
security professionals, because our highly specialized 
workforce is our greatest asset.
    The President has now clearly outlined the importance of 
nuclear issues for our national security and of keeping the 
U.S. nuclear deterrent safe, secure, and effective for the 
foreseeable future. The administration's commitment to a clear 
and long-term plan for managing the stockpile, and its 
comprehensive nuclear security agenda, ensures the scientists 
and engineers of tomorrow will have the opportunity to engage 
in challenging research and development activities.
    I want to share with the committee a statement from our 
national laboratory directors that provides their view on the 
NPR. The directors universally state that:

          ``We believe the approach outlined in the NPR, which 
        excludes further nuclear testing and includes the 
        consideration of the full range of life-extension 
        options, provides the necessary technical flexibility 
        to manage the nuclear stockpile into the future with an 
        acceptable level of risk. We are reassured that a key 
        component of the NPR is the recognition of the 
        importance of supporting a modern physical 
        infrastructure comprised of the national security 
        laboratories, and a complex of supporting facilities, 
        and a highly capable workforce.''

    This NPR is an important step towards adopting a 21st 
century approach to nuclear weapons and a broader array of 
nuclear security issues. This path forward will require a long-
term commitment to provide the support and the resources 
necessary to sustain our deterrent and enable future arms 
reductions.
    Finally, our approach towards maintaining the stockpile 
described in the NPR is wholly consistent with, and was 
informed by, the Stockpile Management Program principles passed 
into law through the 2010 NDAA.
    With the committee's endorsement, the nuclear security 
enterprise will have the science, technology, and engineering 
expertise to manage the stockpile and to also carry out the 
full range of nuclear security missions, which include nuclear 
nonproliferation, nuclear counterterrorism, and nuclear 
forensics, among other activities.
    Secretary Chu recently stated that DOE must discover and 
deliver those solutions to advance our national priorities. The 
NNSA and our nuclear security enterprise are poised to provide 
these solutions.
    I'll be pleased to respond to your questions. Thank you.
    [The prepared statement of Mr. D'Agostino follows:]
            Prepared Statement by Hon. Thomas P. D'Agostino
    Thank you Mr. Chairman and members of the committee. I am pleased 
to appear before you to discuss the Department of Energy's (DOE) key 
elements included in the administration's Nuclear Posture Review, 
released on April 6, 2010.
    The Nuclear Posture Review (NPR) reaffirms President Obama's 
commitment to providing DOE and its National Nuclear Security 
Administration (NNSA) the resources required to support the President's 
nuclear security agenda and maintain the safety, security and 
effectiveness of the U.S. nuclear deterrent without underground 
testing. The NPR reflects the fact that protecting our Nation's nuclear 
security is an enduring Government-wide responsibility. I am proud of 
the role the DOE played in what was the first, truly interagency NPR in 
our Nation's history.
    The NPR lays out five key objectives that provide a comprehensive 
path forward for implementing the President's nuclear security agenda 
for reducing nuclear dangers and pursuing the peace and security of a 
world without nuclear weapons. The five objectives are:

    1.  Preventing nuclear proliferation and nuclear terrorism;
    2.  Reducing the role of nuclear weapons;
    3.  Maintaining strategic deterrence and stability at reduced 
nuclear force levels;
    4.  Strengthening regional deterrence and reassurance of U.S. 
allies and partners; and,
    5.  Sustaining a safe, secure, and effective nuclear arsenal.
             preventing nuclear proliferation and terrorism
    DOE and the NNSA are actively engaged in direct support of the 
first objective, ``preventing nuclear proliferation and nuclear 
terrorism.'' The Department's fiscal year 2011 budget request includes 
a nearly 26 percent increase in funding for NNSA's nuclear 
nonproliferation programs. These programs encompass the first line of 
defense, second line of defense, and additional programs aimed at 
securing vulnerable nuclear materials within 4 years and providing key 
technical support to prevent proliferation in other nuclear arenas. The 
most important thing that can be done to keep terrorists from 
developing and using an improvised nuclear device or a radiological 
dispersion device (an RDD or a so-called ``dirty bomb'') is to prevent 
them from acquiring nuclear material. The NNSA is accelerating and 
broadening the scope of its efforts to improve the security of nuclear 
materials in the United States and globally to achieve the President's 
priorities first articulated in Prague. Current NNSA programs include:

        <bullet> Securing nuclear materials, technology, and expertise, 
        including the most vulnerable nuclear materials, worldwide 
        within 4 years and disposition of excess U.S. and international 
        fissile materials;
        <bullet> Working with the Office of Nuclear Energy to support 
        the development of a new framework for peaceful nuclear energy 
        to promote civil nuclear power and nonproliferation objectives;
        <bullet> Strengthening the international safeguards system by 
        developing new safeguards technologies, expertise, policies, 
        concepts, and partnerships;
        <bullet> Developing an active nuclear and radiological security 
        dialog and cooperation with key domestic and international 
        partners; and,
        <bullet> Developing highly sensitive and wide-area nuclear 
        materials detection technology.

    NNSA programs are also supporting the President's arms control and 
nonproliferation agenda by using the technical capabilities within the 
Nuclear Security Enterprise to demonstrate the technical ability to 
support, monitor, and comply with the Comprehensive Nuclear Test Ban 
Treaty (CTBT), the Fissile Material Cutoff Treaty, and any follow-on 
arms control requirements.
                  managing the u.s. nuclear stockpile
    DOE and NNSA are also actively engaged in direct support of the 
fifth NPR objective, ``sustaining a safe, secure, and effective nuclear 
arsenal.''
    The need to maintain the safety, security and effectiveness of an 
aging stockpile without resuming nuclear testing has been a bipartisan 
national policy for nearly 20 years under both Democratic and 
Republican administrations. As the President said in Prague, we will 
sustain a safe, secure, and effective nuclear arsenal as long as 
nuclear weapons exist.
    This NPR reflects that commitment and our budget request, if 
approved, would provide the resources required to make that possible. 
The NPR is based on several key principles that will guide future U.S. 
decisions on stockpile management.

        <bullet> The United States will not conduct nuclear testing, 
        and will seek ratification and entry into force of the CTBT.
        <bullet> The United States will not develop new nuclear 
        warheads. The NPR makes clear that the United States will only 
        use nuclear components based on previously tested designs, and 
        will not pursue new military missions or provide for new 
        military capabilities for our stockpile.
        <bullet> The United States will study options for ensuring the 
        safety, security, and effectiveness of nuclear warheads on a 
        case-by-case basis, consistent with the congressionally-
        mandated Stockpile Management Program. The full range of life 
        extension program (LEP) approaches will be considered: 
        refurbishment of existing warheads, reuse of nuclear components 
        from different warheads, and replacement of nuclear components.
        <bullet> Finally, in any decision to proceed to engineering 
        development for warhead LEPs, the United States will give 
        strong preference to options for refurbishment or reuse. The 
        NPR makes clear that replacement of nuclear components would be 
        undertaken only if critical Stockpile Management Program goals 
        could not otherwise be met, and if specifically authorized by 
        the President and approved by Congress.

    Using these principles, the United States will extend the life of 
nuclear warheads required for the smaller force structure identified 
under the follow-on START agreement. Consistent with this approach, the 
NPR recommended that:

        <bullet> The administration fully fund the ongoing LEP for the 
        W76 submarine-based warhead for a 2017 completion, and the full 
        scope LEP study and follow-on activities for the B61 bomb to 
        ensure first production begins in 2017.
        <bullet> The Nuclear Weapons Council initiate a study in 2010 
        of LEP options for the W78 ICBM warhead to be conducted jointly 
        by the NNSA and the Department of Defense (DOD). This study 
        will consider, as all future LEP studies will, the possibility 
        of using the resulting warhead also on multiple platforms in 
        order to reduce the number of warhead types.

    The NNSA, in close coordination with the DoD, will provide a new 
stockpile stewardship and management plan to Congress, consistent with 
the increases in infrastructure investment requested in the President's 
fiscal year 2011 budget request. A more robust and modernized 
infrastructure will enable the United States to shift away from 
retaining large numbers of nondeployed warheads as a technical hedge, 
allowing additional reductions in the U.S. stockpile of nondeployed 
nuclear weapons.
    This consolidated approach will ensure high confidence in the 
technical performance of warheads retained in the stockpile. It will 
guarantee that their safety and security are aligned with 21st century 
requirements (and technical capabilities). This approach sets a high 
standard for the safety and security of U.S. nuclear weapons and, in 
support of nonproliferation goals, positions the United States to 
encourage other nations to maintain the highest levels of surety for 
their nuclear stockpiles.
    These activities are also consistent with the principles of the 
Stockpile Management Program outlined by Congress in the National 
Defense Authorization Act for Fiscal Year 2010.
   recapitalizing critical infrastructure and renewing human capital
    The NPR concluded that DOE needed increased funding to recapitalize 
the aging infrastructure used to support the stockpile and conduct a 
full range of nuclear security missions, and to renew our human 
capital--the critical cadre of scientific, technical, and engineering 
experts who underpin our stockpile management work and support our 
nuclear nonproliferation and counterterrorism missions.
    In order to sustain a safe, secure, and effective U.S. nuclear 
stockpile as long as nuclear weapons exist, the United States must 
possess a modern physical infrastructure--comprised of the national 
security laboratories and a complex of supporting facilities.
    The NPR concluded that the following key investments were required 
to sustain a safe, secure, and effective nuclear arsenal:

        <bullet> Strengthening the science, technology, and engineering 
        base needed for conducting weapon system LEPs, maturing 
        advanced technologies to increase weapons surety, qualification 
        of weapon components and certifying weapons without nuclear 
        testing, and providing annual stockpile assessments through 
        weapons surveillance. This includes developing and sustaining 
        high quality scientific staff and supporting computational and 
        experimental capabilities.
        <bullet> Funding the Chemistry and Metallurgy Research 
        Replacement Project at Los Alamos National Laboratory to 
        replace the existing 50-year old Chemistry and Metallurgy 
        Research facility by 2021.
        <bullet> Developing a new Uranium Processing Facility at the Y-
        12 Plant in Oak Ridge, TN, to come on line for production 
        operations by 2021. Without an ability to produce uranium 
        components, any plan to sustain the stockpile, as well as 
        support for our naval nuclear propulsion programs, will come to 
        a halt.

    More broadly, the administration supports the needed 
recapitalization of the nuclear infrastructure through fully funding 
the NNSA. These nuclear security facilities will be sized to support 
the requirements of the Stockpile Stewardship Program mandated by 
Congress and to meet the multiple requirements of dismantling warheads 
and eliminating material no longer needed for defense purposes, 
conducting technical surveillance, implementing life extension plans, 
and supporting naval propulsion requirements. Increased investments in 
the nuclear security enterprise are needed to ensure the long-term 
safety, security, and effectiveness of our nuclear arsenal and to 
support the full range of nuclear security work to include 
nonproliferation, nuclear forensics, nuclear counterterrorism, 
emergency management, intelligence analysis, and treaty verification.
    Responsible stockpile management requires not only infrastructure, 
but also a highly capable workforce with the specialized skills needed 
to sustain the nuclear deterrent and to support the President's overall 
nuclear security agenda. Like our physical infrastructure, over the 
last decade our human capital base has been underfunded and 
underdeveloped. The decrease in funding for the science and engineering 
basis of stockpile assessment and management meant that technical 
issues might remain unresolved and the best and brightest scientists 
were therefore less attracted to the endeavor. A number of leaders 
noted that a national consensus on the approach to sustaining warheads, 
and adequate funding of those challenges, was essential to sustaining 
our nuclear technical capabilities. The cumulative loss of focus, 
expertise, and excellence on nuclear matters in the United States 
remains a significant challenge, but one that we can now address.
    The President has now clearly outlined the importance of nuclear 
issues for our national security, and the importance of keeping the 
U.S. nuclear deterrent safe, secure, and effective at the minimum 
numbers required. Further, the administration's commitment to a clear 
and long-term plan for managing the stockpile ensures the scientists 
and engineers of tomorrow will have the opportunity to engage in 
challenging research and development activities that are essential to 
their recruitment and retention.
    A modern nuclear security infrastructure and highly skilled 
workforce are also essential to arms control and nonproliferation 
objectives. For example, by certifying the reliability of each weapon 
type we retain, the United States can credibly assure non-nuclear 
allies and partners they need not build their own, while we seek 
greater stockpile reductions than otherwise possible. We also enhance 
our ability to assess and render safe potential terrorist nuclear 
devices and support other national security initiatives, such as 
nuclear forensics and attribution, and to understand the technical 
challenges associated with verifying ever deeper arms control 
reductions, which is critical for managing risks on the path to zero.
            recapitalizing the sea-based strategic deterrent
    The NPR sustains the Strategic Triad. This drives the recent DOD 
decision to recapitalize the sea-based strategic deterrent. The Ohio-
class ballistic submarines, the most survivable leg of the Nation's 
strategic deterrent, are reaching the end of their operational life. In 
support of the NPR, the Naval Reactors program will continue reactor 
plant design and development efforts begun in 2010 for procurement of 
long-lead reactor plant components in 2017, in support of Navy 
procurement of the first Ohio-class submarine replacement in 2019.
                               conclusion
    We are already implementing the principles in the NPR. For example, 
the President's fiscal year 2011 budget request for NNSA includes $11.2 
billion (a 13 percent increase from 2010) to manage the stockpile, 
recapitalize the NNSA infrastructure, and support the full range of 
nuclear security missions--including NNSA's role in preventing nuclear 
proliferation, powering the nuclear navy, and promoting effective 
nuclear counterterrorism capabilities.
    This NPR is an important step toward ending Cold War thinking and 
adopting a 21st century approach to nuclear weapons and nuclear 
security issues. The administration's substantial fiscal year 2011 
budget request begins the turnaround to this NPR path. With the 
committee's help, we can sustain our nuclear deterrent and enable 
future arms reductions.

    Chairman Levin. Thank you very much, Mr. D'Agostino.
    Let's try an 8-minute first round.
    I want to thank Senator Ben Nelson, by the way, for taking 
over at around 10:30 a.m., when I have to leave. I very much 
appreciate that, Senator Nelson.
    General, let me start with you. You indicated in your 
testimony that STRATCOM was a full participant in the NPR 
process, and that you're satisfied with the outcome. When 
STRATCOM performed the analysis to support the NPR, you also 
said that the force structure decisions were based on existing 
nuclear guidance, which has existed since 2008. If I understand 
that statement correctly, you're implying that the force 
structure in the NPR is more than enough to meet future 
requirements, because, in part, it meets current requirements. 
Is that correct? Do I have that straight?
    General Chilton. Senator, as we got into the last-year time 
period and realized with the NPR being due, the Quadrennial 
Defense Review being due, START expiring, we knew we needed to 
fix the playing field on how we could proceed forward on this. 
Dr. Miller can add to this, as well. So, one of the things that 
we decided we needed to fix, as we went forward with START 
negotiations, in particular, was what we were going to base our 
negotiating strategy on. What guidance should we assume is 
applicable to this? It was decided, rather than work through, 
which is normally a year-long process to develop new strategies 
and guidance, we would just fix that for our analysis of the 
force structure for the START negotiations. That's how we moved 
forward.
    That is the context of my statement, there, is that, it was 
more about how we went forward. Yes, I am comfortable with the 
force structure we have. I believe it is adequate for the 
mission that we've been given, and is consistent with NPR.
    The only assumptions we had to make with regard to the new 
NPR, which was, of course, in development at the time, was that 
there would be no request for an increase in forces. There was 
also an assumption that I think is valid, that the Russians, in 
the post-negotiation time period, would be compliant with the 
treaty, should they ratify that, and that we would, too. Those 
were really our going-in positions.
    Chairman Levin. During the Cold War, the force structure 
was based largely on the number of targets and the certainty 
required to hold those targets at risk, and to eliminate the 
targets. Without a specific adversary, I understand that the 
philosophy has changed so that the force structure is based on 
the capabilities to address types of targets rather than 
specific targets. If that is accurate, does the change in 
philosophy provide you with the confidence that you can go to 
lower levels and still meet any new nuclear guidance policy?
    General Chilton. Mr. Chairman, a couple of points. One, 
parity was a driving factor at one point during the Cold War, 
which is why we still had continuous growth in stockpiles back 
and forth between the Soviet Union and the United States, at 
the time. It wasn't so much driven by specific targets as it 
was how big your force structure was. We've steered away from 
that, for sure.
    One thing that is similar is that what STRATCOM--then 
Strategic Air Command, in the Cold War--was told to plan 
against, was types of categories of targets, and then the 
Command would plan against and present the results of those 
efforts up for approval. That process is pretty much still in 
place. Again, we're not told specifically what to do. We're 
told categories, as you described, for our deterrence, we 
develop a plan, and then push that forward for Secretary of 
Defense approval.
    Chairman Levin. Let me ask both Dr. Miller and you, General 
Chilton, the NPR does not identify how the 800 strategic 
nuclear systems are going to be allocated amongst the legs of 
the triad--the 800 coming from the New START treaty. What's the 
process for determining how many nuclear-capable bombers, how 
many SLBMs, and how many land-based ICBMs are going to be in 
the force structure? Let me start with you, Dr. Miller, when's 
this process going to be completed?
    Dr. Miller. Mr. Chairman, this process began during the 
NPR, and we looked at a wide range of alternative force 
structures. It will be completed shortly, as we provide the 
Section 1251 report to Congress. Along with that, we'll provide 
a recommended baseline force structure.
    Chairman Levin. When is that?
    Dr. Miller. It will be provided, sir, with the submission 
of the New START treaty, hopefully in the next several weeks.
    Chairman Levin. Okay.
    Dr. Miller. If I could add, the treaty provides and allows 
the freedom to mix, for both sides, their strategic forces, 
under these limits. Our intention would be to provide a 
baseline plan, understanding that it could be modified later, 
if there were a challenge with one leg of the triad or another.
    Mr. Chairman, if I could add very briefly, with respect to 
the question of guidance, during the NPR we looked at a very 
wide range of possible nuclear scenarios and found that the 
force structure and the numbers that had become part of the New 
START treaty, provided a very robust capability across that 
wide range. We are in the process of reviewing and revising 
classified guidance, and are confident that this force 
structure will provide more than enough capability for that 
revised guidance.
    Chairman Levin. Do you agree with that, General?
    General Chilton. I do, Mr. Chairman.
    Chairman Levin. Okay.
    Secretary Tauscher, one of the key objectives of the NPR is 
to strengthen the NPT regime. Now, the review conference for 
that treaty is going to be held in May, with a commitment to 
support the regional allies and partners, as this NPR does, 
with the reductions in deployed nuclear forces, and increased 
emphasis on nonproliferation. Do you believe that the NPR will 
have a positive effect on the review conference?
    Ms. Tauscher. Yes, Mr. Chairman, we do. The President has 
made the NPT a central pillar in his nonproliferation agenda, 
and strengthening the NPT, both through the review conference 
and ongoing efforts, is a very important opportunity. Both the 
Negative Security Assurance in the NPR, which makes very clear 
the exemption for non-nuclear-weapon states that are in 
compliance with the NPT obligations. This, once again, not only 
makes clear what our position is on the exemption, but it also 
strengthens the NPT and countries' acsession to it and 
adherence to it. What it says is that, if you are a member of 
the NPT, and are clearly in compliance, then you have this 
exemption.
    I think that the President's agenda, when it comes to the 
NPT review, is one--because it's a consensus-driven exercise, 
for over a month in New York at the U.N., with hundreds of 
countries coming, there are many different parts of this that 
we want to work collaboratively. But, at the same time, it's 
not just the review conference, but an ongoing effort, working 
with key partners, to make sure that the NPT is strengthened, 
and that there is great adherence to it.
    Chairman Levin. There are also commitments, are there not, 
in the NPT for the nuclear powers to reduce their nuclear 
inventories? Is that not correct?
    Ms. Tauscher. Yes, sir. That's Article 6 of the NPT.
    There are three pillars to the NPT: peaceful uses, 
disarmament, and nonproliferation. We believe, in the United 
States, certainly with the New START treaty and other efforts 
that we have made unilaterally, that we have made a strong 
commitment to Article 6 of the NPT. You won't be surprised to 
find out that not everyone believes that, but we strongly 
assert that we, certainly with Russia, because we have 90 
percent of the weapons in the world are reducing those numbers, 
and we are working very seriously to maintain a very strong, 
safe, and effective stockpile.
    Chairman Levin. If we expect others to maintain their 
commitments to the NPT, it is important, won't you agree, that 
we keep our commitments, as well, relative to reductions?
    Ms. Tauscher. As usual, Mr. Chairman, there are issues like 
Iran, which are a significant challenge for us, and have been 
for various administrations. The Iranians' lack of commitment 
to the NPT and their abuse of U.N. Security Council resolutions 
cause us to look for arrows in our quiver that will remind 
people of these obligations. Certainly, the NPT is the best 
example we have of Iranian noncompliance.
    Chairman Levin. Okay, thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Dr. Miller, a lot of us have been very unhappy about the 
fact that there is no cohesive--or, coherent policy towards the 
Iranian nuclear buildup and their inexorable movement towards 
the acquisition of nuclear weapons capability, which is the 
view of all intelligence agencies throughout the world. At last 
week's hearing on Iran, Secretary Flournoy and General 
Cartwright said, in direct response to questions, that all 
options regarding Iran were on the table.
    Yesterday, in Singapore, Under Secretary of Defense for 
Policy, Secretary Michele Flournoy said during a press 
briefing, ``Military force is an option of last resort;'' 
Michele Flournoy said, ``it's off the table in the near term.'' 
Now, which is it? Which is it, Dr. Miller? Is it off the table 
for the near-term, as Secretary Flournoy says, in direct 
contradiction to her testimony before this committee? What is 
the near-term, if it's off the table in the near-term? Do you 
think the American people have a right to know that?
    Dr. Miller. Senator McCain, I had the opportunity to talk 
to Under Secretary Flournoy yesterday, and I have not seen a 
transcript, nor has she, to confirm which is the case. But, she 
was either misquoted or misspoke; the administration's policy, 
as Under Secretary Flournoy said before, is that all options 
are on the table.
    The administration has also made clear that the strong 
preference is to work through diplomatic channels, and now as 
we move to the so-called ``pressure track,'' to apply sanctions 
to Iran so that they will change their policy.
    But I will, again, state for the record, and on behalf of 
the administration, that all options are on the table, sir.
    Senator McCain. So, now we're treated to our Under 
Secretary of Defense for Policy going to Singapore and saying 
``It's off the table in the near term.'' No wonder our friends 
are dispirited and our enemies are encouraged.
    Secretary Tauscher, why did the decision made concerning 
the elimination of the nuclear option in cases of nations that 
are in compliance with the NPT? What was the rationale behind 
that reversal of what has been a national policy of deliberate 
ambiguity since the beginning of the Cold War?
    Ms. Tauscher. Senator McCain, I don't think it's a 
reversal. I think what it is, is an articulation of the reality 
of the 21st century. What we have----
    Senator McCain. Excuse me, it's not a reversal of the 
previous policy of ambiguity concerning what the U.S. action 
would be, in case of attacks on the United States and our 
allies?
    Ms. Tauscher. With all due respect, Senator, I don't know 
how you reverse ambiguity. Ambiguity is what it is, it means 
that you were not specific----
    Senator McCain. Oh no, ambiguity was clearly a policy, 
Madam Secretary. It was clearly a policy so that our enemies 
would not be clear as to what actions we would take in case of 
attacks. That----
    Ms. Tauscher. Senator, you're making my point.
    Senator McCain:--that is a policy, Secretary Tauscher. If 
you allege that it's not, then we might as well move on to the 
next question.
    Ms. Tauscher. Senator, you're making my point for me.
    Senator McCain. Pardon me?
    Ms. Tauscher. You're making my point for me; we were not 
clear. We were not clear to countries, that----
    Senator McCain. Now we are clear.
    Ms. Tauscher.--we would never use nuclear weapons against, 
that we would not use nuclear weapons against them. That's what 
this policy says. This policy says that, for non-nuclear-weapon 
states that are in compliance with their NPT obligations, we're 
not going to either threaten or use nuclear weapons against 
them.
    Senator McCain. That's not a change in our policy.
    Ms. Tauscher. It is an articulation of our policy. It is 
moving our policy to a more clear point of view. It is more 
clear than ambiguity. Yes, that's right.
    Dr. Miller. Senator, could I perhaps add, briefly----
    Senator McCain. I'll be glad to.
    That's one of the more bizarre statements I've ever heard 
made before this committee.
    Go ahead.
    Dr. Miller. Senator McCain, the United States first made a 
Negative Security Assurance associated with the NPT in 1978, 
and that's by Secretary of State Cyrus Vance. The statement 
said that the United States would not use nuclear weapons 
against non-nuclear-weapon states that were party to the NPT.
    Same pledge was made in 1995, and again in 2002 by 
subsequent administrations, so this Negative Security Assurance 
is not new. What the change is, in the NPR, is that we've added 
the condition that a state must also be compliant with its NPT 
obligations. So, we've added a condition. In order to get into 
that group, that is provided an assurance that the United 
States will not use nuclear weapons, we've added a condition. 
Under the old assurance, that Iran, today, would be provided 
that assurance and under the new assurance it is not.
    Sir, the other part of that, I think you were refering to 
it as calculated ambiguity, at various points in time in the 
past, the United States has hinted that nuclear weapons might 
be used in response to chemical or biological weapons, even if 
by a non-nuclear-weapon states. Our view was that the 
credibility and capability of our deterrence posture is the 
determinative factor, in that--both with respect to non-
nuclear-weapon states and nuclear-weapon states or noncompliant 
states, that a clear posture that distinguishes between those 
two was likely to be more effective for deterrence.
    Senator McCain. I guess that's in the eye of the beholder, 
Dr. Miller.
    So, let's have this scenario. There's a biological and 
chemical attack on the United States of America, inflicting a 
great deal of devastation on the United States of America, and 
we know who did it. So, then the decision is made as to whether 
we consider the use of nuclear weapons to be directly guided by 
and dictated by whether that nation is in compliance with the 
NPT?
    Dr. Miller. Sir, the policy would be that the use of 
nuclear weapons would be contemplated if that state were either 
a nuclear-weapon state, or a state that was not compliant with 
its nuclear nonproliferation obligations.
    Senator McCain. So, if there is a massive attack on the 
United States, we decide whether nuclear weapons are used, or 
will not be used, not because that might be the best way to 
respond or not, but whether that nation is in compliance with 
the NPT?
    Dr. Miller. Senator McCain, the----
    Senator McCain. That is really remarkable.
    So, we are telling the American people, now, that if 
there's a chemical or biological attack on the United States of 
America, and it is of devastating consequences, we will rule 
out the option of using a nuclear weapon, even though that may 
be the most effective course of action, if that country is in 
compliance or noncompliance with the NPT.
    Dr. Miller. Sir, if you look at the countries today that 
have any significant capacity to develop chemical and 
biological weapons, you will find that those are states that 
are either nuclear-weapon states or that are not in compliance 
with their nuclear nonproliferation obligations, such as----
    Senator McCain. Today.
    Dr. Miller.--North Korea and----
    Senator McCain. Today, that's the case. Maybe not a year or 
5 years from now. But, if they are in compliance with the NPT, 
they are free to launch attacks on the United States of 
America, and be assured that there will not be a response with 
nuclear weapons, even though that may be, in the view of our 
military leaders, the best way to respond to it.
    Dr. Miller. Sir, if you look at the experience of, to take 
one example of Saddam Hussein, I think you can see that the 
conventional capabilities of the United States ought to be 
sufficient to provide a very significant deterrent. We've made 
it clear, in this NPR, that both political and military leaders 
would be held accountable for the use, or the transfer, of 
weapons of mass destruction.
    Might I very briefly add, with respect to your point, that 
conditions could change. I absolutely agree. That's 
specifically why the NPR stated that the United States reserves 
the right to modify this assurance if, in the future, the 
threat posed by biological weapons proliferation and technology 
advancement would make that appropriate.
    Senator McCain. Of course, I got a non-answer from 
Secretary Tauscher. Why we even got into this is beyond me . . 
. is beyond me. But, the fact is that we have now sent a 
message: Stay in compliance with the NPT, and you will be 
immune from the response, if necessary, of a nuclear weapon, in 
order to save and minimize losses or most effectively respond 
to a chemical or biological attack on the United States of 
America. It's a remarkable circumstance.
    My time has expired.
    Senator Ben Nelson [presiding]. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Secretary Tauscher, I think you were leaning forward to the 
microphone. I wanted to give you another chance to answer the 
question from Senator McCain, because it's an important 
question, which is, why is this section in here? In other 
words, before I give you the chance, I'll just say, really 
briefly, it does seem to me that this provision in the NPR 
takes the previous calculated ambiguity, removes a lot of the 
ambiguity, but, frankly, then restores some of the ambiguity, 
in the language that Mr. Miller just quoted. Dr. Miller, which 
is that we reserve the right to review this at any time. So, 
it's a curious part of this, of the review, which I, overall, 
think is a very constructive and significant document. So, why 
is it there?
    Ms. Tauscher. Senator Lieberman, it's there because the 
decision, I think rightly, was made that the great balance of 
countries, many of whom are our allies that don't have nuclear 
weapons and that are in compliance with their NPT obligations, 
are not targets of the United States to use nuclear weapons. 
The bar for using nuclear weapons is extremely high.
    Senator Lieberman. Right.
    Ms. Tauscher. The deterrence of nuclear weapons is 
extremely successful. We have not used a nuclear weapon in 65 
years. We have used conventional weapons, with great success, 
great force, and great devastation, in the recent decade.
    Senator Lieberman. Right.
    Ms. Tauscher. So, we have decided that we would deter 
activities by non-nuclear-weapon states in good compliance with 
the NPT, with conventional weapons. Knowing that, we believe, 
since we have the finest military in the world and the most 
significant conventional weapons, that that deterrence suits 
the kind of threat that they pose to us.
    We have added the caveat that, if those states should use 
chemical or biological weapons, that we would make very clear 
to them, we specifically say that we would use a devastating 
conventional force, and that we would hold all of those 
accountable. That makes it very clear, to any leadership in 
those countries, what the consequences of these kinds of 
aggressions would be.
    Senator Lieberman. Okay, so that helps to clarify this, Dr. 
Miller, you said earlier that this was ``explicitly not 
intended'' as a removal of ambiguity, in the case, for 
instance, of Iran and North Korea.
    Ms. Tauscher. That's right, because what we did----
    Senator Lieberman. Because they're not in compliance with--
--
    Ms. Tauscher. That's right.
    Senator Lieberman. Or they're not signatories. So, this is 
a reassurance to our allies.
    Okay, I'd just ask one last question. Maybe you've answered 
it, but just to give you a real-life example, as I recall it.
    In 1991, during the lead-up or the beginning of the Gulf 
War, I can't remember the exact timeframe, but Secretary of 
State Baker issued a public warning to Saddam Hussein that, if 
the Iraqis used chemical weapons on our troops, they would 
suffer, I believe he said something like devastating 
consequences. That was widely interpreted to include nuclear 
weapons.
    In the aftermath of the NPR, would you say that a current 
Secretary of State or President, in a similar circumstance, 
could issue the same warning?
    Dr. Miller. Senator Lieberman, the answer to that is yes. 
Iraq, at the time, was not in compliance with its nuclear 
nonproliferation obligations, in precisely the same words, and 
an associated calculated ambiguity would be applicable.
    Senator Lieberman. Very good. I appreciate that.
    Let me go on to another point, which was the main concern I 
had about the NPR, as I said; and most of it, I think, is 
really constructive and important. I was surprised by the 
statement that, when weighing options for the life-extension 
programs for our nuclear arsenal, which become more important 
as we go forward with the New START treaty, because we're going 
to have fewer nuclear weapons. This is a quote from the NPR: 
``There's a strong preference for the refurbishment or reuse of 
nuclear components, rather than their replacement.'' The NPR 
continues to state, ``replacement of nuclear components would 
be undertaken only if critical stockpile management program 
goals could otherwise not be met.''
    I was surprised by that, because I think the overall goal 
is, what you've said and we all agree with, that we wanted to 
maintain a safe, secure, and effective nuclear stockpile. That 
was the goal of the nuclear stockpile program, the goal of 
setting up of the NNSA. It's consistent with--I'm looking at a 
document that reported, the 2009 Jason Advisory Report to the 
NNSA, it describes reuse and replacement. Frankly, the language 
of the replacement seems most forward-leaning. This is actually 
a quote from their report of, what they said, the definitions 
given to them by NNSA. I'll quote from the definition of 
warhead replacement. ``Some, or all, of the components of a 
warhead are replaced with modern design that are more easily 
manufacturable, provide increased warhead margins, forego no-
longer-available or hazardous materials, improve safety, 
security, and use control, and offer the potential for future 
overall stockpile reductions.''
    So, here's my concern, I'm puzzled about why that language 
is in there, because I fear that it will send, both to NNSA 
and, most important, to the extraordinary scientists who are 
working for us, a kind of discouragement to use replacement, 
when, to me, it should be equal with reuse and refurbishment. 
The choice would be, which one helps us most to have a safe, 
secure, and effective, reliable nuclear stockpile?
    Dr. Miller and Mr. D'Agostino, or maybe both?
    So, can you reassure us that replacement is equal, as an 
alternative, to keep our stockpile as we want it to be?
    Dr. Miller. Senator Lieberman, I'll answer very briefly, 
and then turn it over to Mr. D'Agostino.
    Senator Lieberman. Okay.
    Dr. Miller. The NPR stipulates that, in considering life-
extension programs, that the full range will be considered and 
studied, from refurbishment, to reuse, to replacement, and that 
only at the point of moving forward to engineering development 
would a preference be given, or first consideration be given, 
to refurbishment or reuse.
    It does note that the presidential authorization would be 
required to go forward with replacement. Senator, speaking from 
my perspective, one of the reasons for this provision is that 
the administration noticed that the Reliable Replacement 
Warhead (RRW) Program had been canceled by Congress, and 
understood there would be an important threshold involved with 
moving forward with a replacement option. I wanted the 
President to have a specific look at that and to understand the 
case for it, when it should occur.
    Senator Lieberman. Okay.
    Mr. D'Agostino? To me, it creates some confusion. I hope, 
perhaps in the 1251 report that you're going to submit, you can 
clarify this.
    I'll ask you first; you're the expert. The RRW Program 
doesn't mean building a big, new warhead. Not necessarily. It 
mostly means replacing component parts, doesn't it?
    Mr. D'Agostino. It means replacing component parts, sir. 
The most important thing, from our standpoint, because we have 
a commitment to maintain our stockpile and our deterrent 
without underground testing, is it's based on previously tested 
designs.
    Senator Lieberman. That's very important, I appreciate your 
mentioning that, right. Not a big, new design.
    Mr. D'Agostino. Yes, sir. It's based on previously tested 
designs. We have a tremendous test history, test database that 
we want to exploit and use all that information in order to 
move forward.
    The principles of the Stockpile Management Program have 
really guided us here, as I said in my oral statement. We want 
to increase stockpile safety, security, and reliability. We 
obviously want to reduce the likelihood of conducting an 
underground test and we want to enable reductions in future 
stockpile sizes. The approach outlined in the NPR, as Dr. 
Miller said, allows that full study.
    There's actually no confusion, I've talked to the lab 
directors. They are very comfortable with the language here, 
that it will allow them to study all options and provide to us 
the decisionmakers, policymakers, and ultimately, as it 
proceeds through authorization and appropriation to Congress, 
provides us the opportunity to make sure that we have full 
insight into that best combination of safety, security, 
reliability, cost, use of that test history and database, all 
together in one package.
    Senator Lieberman. Yes. Okay, I appreciate the 
clarification from both of you. I'm interested in what you 
described as a potential reason this was in here, Dr. Miller, 
because of the history that Congress canceled the RRW. But, 
this is a different kind of replacement. I think, as you said, 
it's based on existing design.
    At this moment--not that I or former Congresswoman Tauscher 
would ever say that Congress might alter its opinions on 
matters, or need clarification, but I think it might help to 
define ``replacement'' and assure us, and those working with 
you, that this kind of replacement is on equal footing with 
``reuse and refurbishment.''
    I thank you, my time is up.
    Dr. Miller. Senator, if I could just add one thing, to just 
clarify my comment. It's based on existing component design; 
components that we've tested.
    Senator Lieberman. Right.
    Dr. Miller. Yes, sir.
    Senator Lieberman. Thank you. Understood.
    Dr. Miller. Thank you.
    Senator Ben Nelson. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I, too, want to thank the members of our panel today for 
being here, and for their service to our country, and 
especially want to welcome my former colleague from the House 
of Representatives, Secretary Tauscher. Very nice to have you 
with us today, as well.
    I would like to associate myself with some of the comments 
that Senator McCain made with regard to the calculated 
ambiguity. I, too, think that our military leadership would 
want to have all elements of national power available to them 
in the event of attack by an enemy of the United States. I 
won't belabor the point, because I think he covered it pretty 
well, let me also add that I'm not satisfied with the response 
to that question.
    Dr. Miller and Secretary Tauscher, 9 months ago, General 
Cartwright, the Vice Chairman of the Joint Chiefs of Staff and 
former head of STRATCOM, testified before this committee that 
he would be very concerned about endangering the triad if the 
number of strategic delivery vehicles dropped below 800. Yet, 
the newly signed START treaty limits the number of delivery of 
vehicles to only 700.
    What is the rationale for the agreement on only 700 
delivery vehicles included in the New START treaty? What 
justifications and analysis did you rely on to come to that, to 
arrive at that number?
    Dr. Miller. Senator Thune, I'll give the first answer, and 
General Chilton may wish to join in, as well as Secretary 
Tauscher.
    We conducted extensive analysis during the NPR of various 
force structures, including combinations of different balance 
with each leg of the triad, ICBMs, SLBMs, and heavy bombers. We 
found that there were a range of possible outcomes that would 
be satisfactory and that would meet the requirements for 
STRATCOM.
    As the negotiations proceeded, we continued that analysis, 
and looked at the combination of the limit of 700 deployed 
strategic delivery vehicles or launchers, and a cap of 800 
deployed and nondeployed launchers, and determined that that 
combination allowed us to do virtually everything that would 
have been possible under a single limit of 800 strategic 
delivery vehicles.
    We will provide a specific force structure; I think you'll 
see it's a balanced force structure, associated with the New 
START treaty when we submit the section 1251 report as the 
treaty is provided for advice and consent of the Senate.
    General Chilton. Senator, I would only add that, of course, 
time has passed since General Cartwright testified, and we had 
the opportunity to do a lot more analysis during this time 
period. As we looked at it, it not only made sense 
strategically, but it certainly is doable, to continue to 
sustain the triad at these current numbers and, I believe, at 
lower numbers. The triad will still be a viable and important 
area, even if there are future considerations for that, should 
they come up. The flexibility provided by those three legs are 
still important to us today.
    Senator Thune. Will the Russians have to cut their number 
of delivery vehicles to get to 700?
    Dr. Miller. Senator Thune, relative to their current 
accountable levels under START, it will be a slight reduction. 
We would expect them to be going down in any case over time, 
however.
    Senator Thune. Okay, my understanding is that they're 
already going to be at or below that level. For us to drop down 
to that level, I guess my next question would be, what, if 
anything, do we get in return for that concession?
    Ms. Tauscher. Senator Thune, I wouldn't call it a 
concession. In the negotiations for the New START treaty 
agreement, as you can imagine there are many, many different 
variables and many, many different things. The NPR, which was 
congressionally mandated in this administration, began early 
last year, was actually designed to deal with the guidance for 
the New START treaty negotiations, first and primarily. So, all 
of the guidance that went into the START negotiations came out 
of what was the beginning of the NPR. Those limits were limits 
that the entire interagency agreed to.
    So, I wouldn't call it a concession. These were decisions 
that we made, that we believe were the right numbers for our 
side and the Russians made the same decisions on their own 
side.
    Senator Thune. You answered this, General Chilton, and go 
ahead and respond to that question, if you'd like, but I also 
want to know if you could elaborate a little bit on what the 
implications are for each leg of the nuclear triad under these 
reductions. How many bombers, land-based missiles, or 
submarines will we have to cut in order to be compliant with 
the treaty?
    General Chilton. Right. Those numbers, and the decisions on 
that, will come forward in the next couple of weeks, as Dr. 
Miller said, and there's still some work to be done by the 
Services on how to balance that out.
    But, back to your other point, Senator, one thing I was 
pleased to see in the treaty were these limits. Although Russia 
may be close to, or slightly below them, already, when you look 
to the future, we certainly don't want them to grow. They would 
have been unrestricted, otherwise, without these types of 
limits articulated in the treaty. So, having that limit there, 
and with the knowledge that what we negotiated to is absolutely 
acceptable to the STRATCOM for what we need to do to provide 
the deterrent for the country, made me comfortable with that 
approach.
    Dr. Miller. Senator, if I could add, very briefly, that the 
New START treaty has provisions that should allow us to do 
three things that will reduce the requirement for the number of 
strategic delivery vehicles while still keeping the same force 
structure.
    The first one is, it eliminates what we've called the 
``phantom'' strategic delivery vehicles, those that are 
accountable under the old START treaty, but that are no longer 
associated with the nuclear mission. That includes the 
strategic submarines that were converted to conventional-only 
and it includes our B-1 bombers that have been converted to 
conventional-only. Those changes allow us to take a number of 
delivery vehicles off the books.
    Second, the treaty also allows further conversion of 
current dual-capable bombers to a conventional-only role that 
would take them off the books, as well. We are looking at that 
possibility for some B-52Hs.
    Finally, the treaty allows the elimination of launchers 
from accountability for submarines, through a variety of means, 
including the simple removal of the gas generator that would 
eject the SLBM. As we look at the overall requirement, we 
determined that we wanted to keep 14 strategic submarines in 
the nuclear mission, at least for the near-term, as we see how 
they do as they get toward the later part of their lives. But, 
there's not the same requirement for all the tubes associated 
with those. So, we are looking at the possibility of removing 
some of those, through a relatively simple operation.
    Senator Thune. The NPR emphasizes the development of 
conventional Prompt Global Strike capabilities. Will these 
Prompt Global Strike systems count against the New START treaty 
limits and require further nuclear cuts to accommodate them?
    Dr. Miller. Senator Thune, that is a two-part answer. The 
first part is that, if we were to put a conventional warhead on 
an ICBM with a traditional ballistic missile trajectory, or on 
an SLBM with a traditional ballistic missile trajectory, then 
it would be accountable. When the DOD previously proposed the 
conventional Trident modification, that system had this sort of 
trajectory, and would have been accountable. The numbers 
associated with that were 2 missiles per boat times 14 boats; 
it would be 28. The NPR explicitly looked at the, as it did 
force structure analysis, potential for further reductions, 
under the 700 and 800 combined limit. That would leave room for 
that, and indeed, would leave room for a small number of 
conventional ICBMs, if that were the determination made than 
that was desirable. That would be a very small number. That 
analysis is underway as part of our broader long-range strike 
study, we expect to conclude that in the coming months, and 
provide any recommendations in the fiscal year 2012 budget.
    There are a wide range of conventional systems that would 
be considered Prompt Global Strike that will not be accountable 
under the New START treaty, including, for example, the work 
that's ongoing now on hypersonic-boost glide vehicles, longer-
term work on hypersonic cruise missiles, and so forth.
    Senator Thune. My time is up, if I could get General 
Chilton to respond to--as the nuclear weapons are reduced, and 
conventional Prompt Global Strike capabilities are developed, 
to what degree can those conventional capabilities substitute 
for nuclear capabilities when it comes to providing deterrence?
    General Chilton. Senator, I consider the Prompt Global 
Strike capability as a niche capability, another weapon in the 
quiver, if you will, of the United States to address 
warfighting concerns. I do not see it as a replacement for the 
nuclear deterrent in that role, specifically. Not to say that 
all of our conventional capabilities have some deterrent role. 
But, you don't replace the nuclear deterrent with that, 1 for 
1; or, not even 10 for 1.
    Senator Thune. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator. I guess it's my 
turn.
    Mr. D'Agostino, the new treaty between the Russian 
Government and ours to further reduce the number of strategic 
nuclear forces places a premium on our ability to maintain an 
infrastructure in the technical capacity to provide for that 
stockpile that's safe, secure, and effective into the 
foreseeable future. Do you have adequate funding? Are you 
asking for adequate funding to make certain that the weapons 
programs, the facilities, and the improvements to the 
facilities and workforce are funded?
    Mr. D'Agostino. Senator Nelson, absolutely. I do have 
adequate funding. The fiscal year 2011 President's budget 
request picks a total 5-year stream that provides the funding 
for this first 5-year slice of the program.
    As Dr. Miller described, the 1251 report will describe a 
full 10-year period. This funding stream, and the support by 
future administrations and future Congresses, will be required 
over multiple years, because the work that we have will happen 
over many years.
    Senator Ben Nelson. As I asked you in our subcommittee 
hearing, is the budget backloaded? In other words, are we 
anticipating higher costs in the out years, therefore, 
underfunding for the current and the foreseeable years?
    Mr. D'Agostino. Absolutely not. The budget is not 
backloaded. The budget that we have for the first 5 years 
represents exactly what we need to do, what the NRP has asked 
us to do. It also recognizes the reality that, in the early 
stages, particularly for large construction projects, and of 
which we have two in this proposal, that the early years of 
those construction projects, we spend time doing the design 
work. Then, after a few years of making sure we know exactly 
what we want to build, we'll shift into the construction 
effort. We won't have those baselines established until about 
the year 2012, 2013. Though I do expect some adjustments but, 
this is natural, in a fairly complicated, long-range plan.
    Senator Ben Nelson. Thank you.
    General Chilton, you've stated that you fully support the 
NPR and the New START treaty. Is that accurate?
    General Chilton. That's correct, Senator.
    Senator Ben Nelson. As the combatant commander of STRATCOM, 
perhaps it would be helpful if you could discuss the role that 
you had in the development of the NPR.
    General Chilton. Senator, both with the NPR and with the 
START negotiations, STRATCOM was closely consulted and part of 
the team that was working in the background to support the 
dialogue and the preparation for negotiators, going forward. 
So, we were always asked for our input. We stood up a team 
almost a year and a half ago, anticipating this work, back at 
STRATCOM headquarters, of some very great Americans, with 
exceptional talent, who studied and prepared for this, and put 
the models in place to be able to answer questions quickly to 
support negotiations and also support the dialogue we had with 
policy folks, with Dr. Miller's staff, along the way. We 
certainly appreciate the close cooperation we were offered.
    Senator Ben Nelson. There have been criticisms raised 
regarding whether or not the verification aspects of ``trust 
but verify,'' to use some very famous words, is inadequate in 
this treaty. Could both you and Dr. Miller tell us what your 
belief is about what the verification requirements, or lack of 
requirements, in this treaty really mean? Then, has anybody 
from the Intelligence Community (IC) been consulted in 
connection with these verification issues?
    General Chilton. Senator, you bring up a good point at the 
end. Really the question on whether verification regimes are 
adequate or not is a question for the Director of National 
Intelligence and his staffs, because, they're going to be the 
ones that we will turn to throughout the treaty regime to say, 
``Are the Russians compliant?''
    A couple of points I'd make, though, is, one, throughout 
our participation at STRATCOM, in support of START, these types 
of questions were asked frequently and, I believe, addressed 
throughout that time period. But, again, the question, I think, 
is more appropriate for the IC.
    One final point. There were no verification opportunities 
for us, given the expiring of the previous START agreement, 
back in December. Of course, the Moscow Treaty did not allow 
for any verification. What we were faced with was going forward 
with no verification, no insight into what the Russians would 
be doing with their strategic force structures. So, I'm 
encouraged by the fact that we do have that now included in 
this treaty.
    Senator Ben Nelson. You believe it's adequate at this point 
in time?
    General Chilton. All indications, from what I've been told, 
and my observations throughout the development were that they 
were adequate for the period of the treaty.
    Senator Ben Nelson. Dr. Miller?
    Dr. Miller. Senator Nelson, I would, first, just reiterate 
that this is, ultimately, an IC judgment, and that we expect to 
have a National Intelligence Estimate provided to the Senate 
right about the same time that the treaty is. The Office of the 
Director of National Intelligence and different elements of the 
community were very much involved as we went forward with the 
negotiations. As the negotiators considered steps to take, in 
terms of the priorities for U.S. negotiating positions, the IC 
played a very important role.
    I'll just say, on a couple of items in particular, I think 
we have very strong provisions. There is a provision for 18 
onsite inspections per year that will be able to cover both 
deployed and nondeployed systems. We have a robust data 
exchange process in place that along with a number of other 
provisions, are quite detailed, help support our ability to 
collect intelligence through national technical means that also 
support verification.
    Again, it's an IC assessment, but I share with General 
Chilton the view that, based on everything that I've seen to 
date, I have great confidence that this treaty will be 
verifiable.
    Senator Ben Nelson. Do you have any reason to believe that 
the intelligence position will be any different than what 
you've just stated, right now? In fact, they were included in 
the discussions and negotiations, so I'm assuming that you 
don't believe that they would have a different opinion than 
yours, right now.
    Dr. Miller. Sir, I don't believe that, but I won't speak 
for the IC. That'll be their judgment.
    Senator Ben Nelson. Yes. I intend to talk to them about it, 
as well. But, thank you.
    Secretary Tauscher, the criticism I've seen from time to 
time is that, if this treaty doesn't really require us to do 
certain things, it's more of a statement that this is what we 
intend to do, as long as it's in our national interest. If it 
ceases to be in our national interest, we reserve the right to 
either withdraw from the treaty or change our actions. The same 
thing would be true of our counterparts.
    Perhaps in a few words, you could give us, then, the value 
of entering into an agreement of that kind, that is not really 
binding per se, because either party may change its behavior or 
withdraw from the treaty.
    Ms. Tauscher. Senator Nelson, that's true of all treaties. 
Most treaties have a national-interest exit clause. In fact, 
the United States decided to abrogate the Anti-Ballistic 
Missile Treaty in the last administration.
    Senator Ben Nelson. That's true.
    Ms. Tauscher. Because we wanted to build limited regional 
missile defenses.
    I think the important parts about this New START treaty 
agreement that are salient and specific to the timing is that 
we had the unfortunate circumstance of the previous START 
treaty expiring last December. While both parties agreed to 
move forward while we were negotiating, to keep the spirit of 
the previous treaty, what we ended up having was a treaty that 
expired. Frankly, in the Moscow Treaty, there was no 
verification at all.
    So, we have verification that is specific. It is robust in 
many different areas; certainly, onsite inspections and a 
number of the elements that we had in the previous START 
agreement. There are fewer inspections, but there are also 
fewer places to inspect. During the Soviet time, we had many, 
many different facilities, including other countries, other 
than Russia. A lot of those facilities have been closed down 
over time, and there are fewer weapons and fewer places to go 
to inspect them.
    I think the amalgam of what we have here is a strong treaty 
on disarmament. We have a strong treaty on verification. We 
have better technical means now than we've ever had. We have a 
smaller footprint to visit. But, I think that, in the end, this 
is a treaty that will serve the American people and add to our 
national security interests.
    Senator Ben Nelson. It can serve as an example for others 
for nonproliferation. Is that fair, too?
    Ms. Tauscher. It serves significantly for nonproliferation. 
That's one of the reasons why the combination of our Negative 
Security Assurance, which makes clear that we're putting a lot 
of onus on belonging to the NPT, and being in compliance to it. 
As Dr. Miller said, up until we changed this policy, in the 
previous policy, Iran and North Korea may have qualified, under 
certain readings of a Negative Security Assurance. What we have 
said is that we will not use nuclear weapons against countries 
that are in compliance with their NPT obligations. That is an 
important difference, and it certainly carves out countries 
like Iran and North Korea, who are clearly not in compliance.
    Senator Ben Nelson. Senator Wicker.
    Senator Wicker. Thank you very much.
    Let me begin by following up on an area that Senator McCain 
touched on.
    Dr. Miller, this statement in Singapore yesterday by 
Secretary Flournoy stated: ``Military force is an option of 
last resort. It is off the table in the near term.'' I 
understand you spoke to Secretary Flournoy yesterday, and her 
position is that she was either misquoted or that she misspoke. 
Is that correct?
    Dr. Miller. That is correct. I have known the Under 
Secretary for some time, and I would lay money that she was 
misquoted.
    Senator Wicker. Okay. Well I hope----
    Dr. Miller. It is, sir, if I could, Senator, very quickly. 
It is fair and appropriate to say that the use of military 
force should be a last resort. But, this administration has 
also made clear that it is on the table.
    Senator Wicker. That we don't take options off the table. I 
think that's a problem you get into when you start answering 
questions of this type. I hope it's a misquote. Alex Kennedy is 
the Associated Press reporter. Perhaps there's a transcript of 
that. Reporters are human, and so are public officials, people 
do make mistakes and do misspeak occasionally.
    But, Secretary Tauscher, do you agree that this needs to be 
clarified, and if, indeed, Secretary Flournoy did say this, 
that she should issue a statement, retracting that?
    Ms. Tauscher. I think, once again, we have to get to the 
bottom of exactly what happened. But, what is clear is this 
administration's policy. This administration's policy, 
regardless of who says it or when it is said, the President has 
made very clear that all options are on the table. While the 
military option may be the one of last resort, it is certainly 
on the table when it comes to Iran.
    Senator Wicker. If she said otherwise, which she's quoted 
as doing, then she should clarify that and retract that 
statement.
    Ms. Tauscher. Under Secretary Flournoy is one of the most 
respected members of DOD, and I'm sure that she will take the 
responsibility seriously.
    Senator Wicker. All right.
    I'll just say this, Mr. Chairman. I would hope that this 
could be clarified. I view it as a serious matter, as did 
Senator McCain. If she said it, we're all human, but she should 
retract it.
    Now, let me ask, then, with regard to this replacement and 
reuse and refurbishment issue, clearly we have made it harder. 
The NPR makes it more difficult to go to the replacement 
option, by saying that that would be a last resort and that it 
should be specifically authorized by the President and approved 
by Congress.
    Mr. D'Agostino, does this make it more difficult for us to 
recruit the top scientists to work on a nuclear stockpile, if 
they know that the replacement option faces these additional 
hurdles, or there's confusion for their professional career? If 
you could, give us an example of what is off the table at this 
point, unless we have specific presidential authorization and 
specific approval by Congress.
    Mr. D'Agostino. Senator Wicker, it does not make it more 
difficult to recruit scientists. The scientists at our 
laboratories now, the lab directors at our laboratories now, 
understand the policy. They understand that they have a free 
rein to study all options associated with extending the life of 
the stockpile. That's the most important thing. This NPR is 
very clear on that.
    Senator Wicker. They're studying all options, and they're 
equally studying the replacement option at the same time.
    Mr. D'Agostino. Yes, Senator, they are equally studying the 
replacement option. The key is to make sure that, in the 
studies of how do we approach extending the life of a 
particular warhead that we understand the benefits associated 
with each of the particular options. The most important thing, 
as the NPR makes clear, is that our desire is to do so in a way 
that maximizes the safety, security, and effectiveness of the 
deterrent without underground testing. The replacement option, 
the policies that put forward here allow us, specifically, to 
be able to do that.
    Senator Wicker. Okay. We're limited in time today. I'm 
going to ask you to provide an example of what we're talking 
about on the record, as a response. Will you do that?
    Mr. D'Agostino. Senator, I'd be glad to provide that for 
the record.
    [The information referred to follows:]

    During the Cold War, designers at the national laboratories 
optimized each nuclear weapon system for military utility and minimized 
cost by designing small, light systems. As the threat environment has 
evolved, the emphasis has shifted. Now our designers are working to 
maintain military capabilities while optimizing the safety, security, 
and reliability features in the system. Replacement and reuse life 
extensions provide the greatest opportunity to modify previously tested 
designs to include modern safety and security components, and to 
increase our confidence in the reliability of the system.
    The use of reuse and replacement to extend the life of a weapon and 
to improve surety and safety will also challenge future designers. The 
full suite of Stockpile Stewardship Program tools will be required to 
design, develop, and certify changes based on existing tested designs. 
This will help maintain the most important part of our deterrent, the 
skilled scientist, engineers, and technicians that design, build, and 
sustain the stockpile. This is also the same skill set needed for 
nuclear forensic and counterterrorism.
    A replacement life extension would replace either the pit or 
secondary with a design based on previously tested designs but not used 
previously in the stockpile. This would require specific presidential 
authorization and funding approved by Congress. An example of a 
replacement life extension is a design that adds advanced safety, 
security, or reliability features and requires greater modifications to 
either the pit or secondary than reuse designs.
    Examples of new warhead or military missions off the table for the 
life extension options of replacement, reuse, and refurbishment include 
enhanced radiation weapons, electromagnetic pulse weapons, or nuclear 
explosive-driven x-ray weapons.

    Senator Wicker. Okay. Because I think it would take all of 
our time.
    Let me ask the panel this, with regard to missile defense 
and Russia. I asked this question to Secretary Gates in January 
2009. What about a possible missile defense program with Russia 
and the United States partnering up? The idea would be a joint 
missile defense system. Secretary Gates said there's nothing in 
writing. But there have been some inferences and some 
discussions, and maybe if we got political baggage out of the 
way, that might be a possibility.
    I had a conversation with a leading Russian legislator just 
this week. I can tell you that he was open to this possibility. 
As a matter of fact, he brought it up before I did.
    Starting with Dr. Miller, others might be able to 
interject, what about this? Is there a place for Russia in this 
issue? Has there been any work with Russia on any of our 
missile defense concepts?
    Dr. Miller. Senator Wicker, the answer is most emphatically 
yes. I had the opportunity to meet with, I expect, the same 
delegation that you did with Senator Margelov from the Russian 
Federation--pardon my butchering of the pronunciation--and had 
a similar conversation.
    Senator Wicker. Senator Nelson taught me how to pronounce 
that word: ``Mar GAY' luv.''
    Dr. Miller. Thank you very much.
    We've had an ongoing conversation with the Russian 
Federation for some time on the possibility of cooperation in 
missile defense, and have begun a joint threat assessment of 
missiles that could affect both Russia and the United States. 
Secretary Gates and DOD believe there's a tremendous amount of 
possibility for significant cooperation moving forward.
    If I could, Secretary Tauscher has led some of our 
discussions with the Russian Federation on this topic. I think 
it would be helpful to hear from her, both about what's been 
accomplished and about plans which I think are going to 
continue in the very near term.
    Senator Wicker. That would be great.
    Ms. Tauscher. Thank you, Dr. Miller.
    Senator Wicker, you're absolutely right. Obviously, while 
there are concerns that we address very often about the phased 
adaptive approach and what exactly it means to the Russian 
Federation, and we have constantly asserted that the phased 
adaptive approach is neither targeted toward the Russian 
Federation nor, frankly, capable to deter its many, many 
offensive weapons. We have had ongoing strategic dialogue with 
the Russians. I began it last summer, and we actually are 
having a meeting again next month.
    There is interest on the part of the Russians. There are 
many threats and many opportunities, where we view the world in 
the same way. We have a warming relationship with the Russians. 
We don't have a close relationship yet, but it certainly is one 
where we are establishing much more of a dialogue, especially 
when it comes to threats and trying to assume that we can look 
at threats the same way.
    So, as Dr. Miller said, we're looking at a joint threat 
analysis. We're looking at common platforms like radars, things 
that the Russians have that are strategically located that 
could be part of a larger network that we would have.
    I think that there is the possibility for and certainly, we 
are going to have ongoing conversations. The idea of working 
cooperatively on missile defense is an agenda item of President 
Obama. He has talked to President Medvedev about it. I think 
that we will continue to see how we can work together and find 
those common areas of common agreement where we can come 
together.
    Senator Wicker. I hope so. I hope that our relationship 
with Russia is, indeed, warming. This is a concept that goes 
back all the way to President Ronald Reagan, who very famously 
and publicly announced, ``If we can learn a way to defend 
ourselves against a missile attack by a rogue nation, we would 
certainly be willing to share that and let others defend 
themselves.'' I'm encouraged by this and I hope we can get 
further reports.
    Thank you, ma'am.
    Senator Ben Nelson. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Good morning.
    It's always wonderful to see my former colleague from the 
House, Secretary Tauscher. Thank you for what you're doing.
    Secretary Miller, you're making an appearance here almost 
every day. Look forward to seeing you again next week, I'm 
sure.
    Secretary Miller, you talked about tactical nukes and the 
fact that they're not included in the limitations addressed in 
both the New START treaty and in the NPR. Could you address the 
quantities of these tactical, or nonstrategic, as some might 
call them, nuclear weapons that we possess, that Russia 
possesses, the function of these weapons, and why they weren't 
limited in START and the NPR. Then, General Chilton and 
Secretary Tauscher, if you'd care to comment as well after 
Secretary Miller does, I'd appreciate it.
    Dr. Miller. Senator Udall, I will not get into precise 
numbers, because they're classified. But, I'll say, in general 
terms, that we have some, and the Russians have a lot more 
tactical nuclear weapons. As we note in the NPR, we'd like to 
see them move their tactical nuclear weapons deeper back into 
Russia, and to continue the steps that they've taken over the 
past couple of decades, since the end of the Cold War, to 
continue to improve the security associated with them.
    These weapons were not included in the New START treaty 
negotiations, quite simply because, at this point in time, 
Russia was not interested in including them. We believed it was 
appropriate and important to move forward with significant 
reductions in our strategic nuclear forces on both sides, and 
that this would have an important effect on strategic stability 
and also help move the relationship forward, as well.
    We have proposed, and noted in the NPR as well, that after 
ratification and entry into force of the New START treaty, 
assuming Senate advice and consent for ratification, that we 
would intend to pursue further reductions that would include 
both strategic and nonstrategic weapons, and both deployed and 
nondeployed weapons, so that we really get after the overall 
number of nuclear weapons on both sides.
    As Under Secretary Tauscher said, even after the New START 
treaty comes into place, the United States and Russia will, 
together, have approximately 90 percent of the world's nuclear 
weapons. So, we think it's appropriate to take another 
bilateral step after the New START treaty.
    Senator Udall. Secretary Tauscher, would you care to 
comment?
    Ms. Tauscher. Thank you, Senator. It's always good to see 
you, too.
    Dr. Miller's right, first things first. START was aptly 
named a long time ago. But, it is the start, not only as 
Senator Wicker mentioned, of the warming of the relationship, 
but it is the start of a bigger opportunity to move not just on 
strategic offensive weapons, which is all that the START treaty 
encompasses, but on to tactical weapons. There is a larger 
agenda, too, of conventional forces in Europe and many other 
things that are intertwined with the 21st century force 
structure and perception of threats and the evolution of 
threats. So, there are many opportunities here, once the Senate 
gives it's advice and consent on the New START treaty, to move 
forward on a bilateral basis with the Russians, but then move 
into a multilateral opportunity on many of these different 
elements. I think that first things first.
    Senator Udall. Sure. It has to be expensive for the 
Russians to maintain all of those tactical nukes. You'd think 
that there might be a sweet spot where they're amenable to 
these future conversations. Is that a fair assumption?
    Ms. Tauscher. That may be a stretch, Senator, but I think, 
certainly, one of the reasons why the President's Nuclear 
Security Summit, I believe, was such a success for having 47 
heads of state here in Washington, talking about nuclear 
terrorism and the importance of nonproliferation. This issue of 
having weapons that are out there that are not only difficult 
to secure, but that are the targets of organized crime and, 
certainly, terrorism. So, smaller number of weapons, easier to 
secure, while we are still, obviously, maintaining our 
stockpile at the highest levels. So, I think that there will be 
increased interest, and perhaps some pressure from the world 
community, for the nuclear powers to look at, specifically, 
tactical substrategic nuclear weapons, and to get the numbers 
down to a more controllable number.
    Senator Udall. General Chilton, did you want to add 
anything to the conversation?
    General Chilton. I think that adequately covers it, 
Senator. I'd agree that the next topic of discussion ought to 
be the large disparity and the large Russian stockpile of what 
we would call tactical weapons. There will be a dialogue that 
needs to start as soon as both sides are ready to come together 
on it. It will be, as mentioned, one that will be a complicated 
one that will take time. But, we won't get there if we don't 
start talking about it.
    Senator Udall. I'm not a lawyer, so I can ask questions I 
don't know the answer to. I'm curious, the size of a tactical 
nuke, would it be much bigger than those two desks that you're 
sitting at there?
    General Chilton. Physically in size?
    Senator Udall. Yes, physical size.
    General Chilton. They can be much smaller than this desk.
    Senator Udall. It can be much smaller. I'm mindful of that 
very powerful documentary that the Nunn-Lugar group put 
together and the couple at the Canadian border with what they 
said was a statue in a desk-sized box, and, instead, it was a 
tactical nuke inside that box.
    Let me turn to China. I know their arsenal is much smaller 
than ours in the States here, but they also have a lack of 
transparency, and so, you could raise questions about their 
strategic intentions.
    Secretary Miller, Secretary Tauscher, could you talk about 
your analysis of their intentions, and what are we doing in the 
realm of more military-to-military discussions that might 
create more transparency and a better relationship?
    Ms. Tauscher. You're right, Senator, I think that 
confidence-building and a sense of transparency and the kind of 
visibility that we're looking for, not only among the nuclear 
powers, but generally to strengthen the NPT, is an area of 
conversation that we have with the Chinese.
    Once again, we are mindful of the fact that China is a 
signatory to the NPT. But, at the same time, I think there are 
concerns about their force posture and the way that they manage 
their weapons that would cause concern, not necessarily 
significant concern, certainly. But people want to have a sense 
of confidence and more of a visibility into the Chinese 
program. More of a sense of confidence-building would be 
welcome.
    Dr. Miller. Senator Udall, I would just add that the 
Chinese have indicated that they're not seeking numerical 
parity with the United States or with Russia. At the same time 
that, as Secretary Tauscher has indicated, they've had a lack 
of transparency about their plans and programs for nuclear 
weapons and delivery systems. We would hope to engage with them 
in a discussion on strategic stability that includes increased 
transparency, not just on numbers of weapons, but on their 
thoughts about both plans and policies associated with them.
    Senator Udall. The NPR calls for bilateral talks, I 
believe, with both Russia and China, with an emphasis on more 
stable and resilient, transparent strategic relationships. When 
would you anticipate those talks might start?
    Ms. Tauscher. President Obama put together a strategic 
dialogue between both China and the United States, and Russia 
and the United States. There are 13 or 14 subgroups. All of 
them have met in both the Chinese and the Russian engagements. 
These are talks that are meant to, once again, assert what our 
positions and our principles are on many issues, but at the 
same time, to listen and to work together and develop 
relationships. So, I think we're well on our way to developing 
those kinds of relationships. But, once again, the Chinese will 
make their own decisions as to the kinds of transparency they 
will have. I think that we and many others are on notice that 
the lack of transparency causes us to ask for more confidence-
building. We are very interested in having conversations that 
would create that kind of confidence.
    Senator Udall. I'm confident, as I finish my questioning 
here, that, Secretary Tauscher, you will lead the effort ably, 
as you have. Congratulations on the New START treaty. I look 
forward, as one Senator, to supporting it when it comes to the 
floor of the Senate. I see no reason that we shouldn't be able 
to find, easily, the 67 votes to ratify the treaty.
    So, thank you for your hard and important work.
    Ms. Tauscher. Thank you, Senator. Thank you very much.
    Senator Udall. Thanks.
    Senator Ben Nelson. Senator Sessions.
    Senator Sessions. Thank you, Chairman Nelson.
    It's great to see each of you. We thank you for your 
service to the country and look forward to working with you on 
some very important issues that we'll be dealing with in the 
months to come.
    Secretary Tauscher, we worked together on funding a lot of 
defense issues over the years, and I hope that relationship can 
continue.
    I'll ask Secretary Miller and Secretary Tauscher this 
question. It seems to me that the President has stated an 
improvident policy. That is that we would eliminate nuclear 
weapons entirely. I say it's improvident because it's not going 
to happen. Sometimes bad goals can get you in trouble. Second, 
the administration seems to be committed to the view that if 
America leads in reducing our weapons significantly, that this 
will cause others to want to follow.
    What evidence do you have, and what facts can you cite, 
that this so-called moral leadership argument will actually 
impact countries that present the greatest immediate threat, it 
seems, to us, Iran and North Korea, from pursuing nuclear 
weapon systems?
    Dr. Miller. Senator Sessions, I'll answer first, and then 
turn it to Secretary Tauscher.
    The goal of eliminating all nuclear weapons from the Earth 
has been a goal of U.S. administrations, starting with the 
Truman administration, and has been embraced by every one--
every administration but one since then, including, very 
famously, President Reagan.
    What the President said as he announced this objective for 
the United States, or reiterated this objective for the United 
States, was that this is an important objective and that he, at 
the same time, realized that it was something that may not 
occur during his lifetime, or during our lifetimes. The fact 
that we are pursuing this objective and taking steps in this 
direction, consistent with our NPT obligations, but, at the 
same time, sustaining a safe, secure, and effective nuclear 
deterrent for ourselves, our allies, and partners, is a 
fundamental part of the policy.
    With respect to the reduction of nuclear weapons, we didn't 
assume that if we reduced it, others would. Indeed, that's why 
we had a bilateral negotiation with Russia to reduce their 
nuclear weapons as we reduced ours. We believe that while exact 
parity in numbers of nuclear weapons is not as important as it 
was, perhaps, during the Cold War, it's still important to have 
approximate parity on both sides, so that neither side has any 
confusion about the intent of the other.
    Finally, with respect to the question of the impact on 
nonproliferation of our statements, including our declaratory 
policy, the intent is to make very clear that there are 
benefits to states that will adhere to the NPT--not just join, 
but fulfill their nuclear nonproliferation obligations and 
there are potential risks to states, such as Iran, that do not.
    Ms. Tauscher. Senator Sessions, as Dr. Miller says, the 
idea of eliminating nuclear weapons has been a goal and an 
aspiration of American administrations for over 50 years. It is 
also a key pillar of the NPT, something that we are not only a 
depository state but a signatory to, that is for nuclear-weapon 
states to disarm.
    But, the President has balanced those commitments and those 
ambitions with a very sanguine set of national security 
priorities, which include increasing budgets, in both the NNSA 
and in the nonproliferation budget, to make sure that until 
that time, as the President has said may not happen in his 
lifetime, that will take patience and persistence. The United 
States will have the strongest, most effective, and the safest 
nuclear stockpile in the world, and that our deterrent that we 
use to protect ourselves and, certainly, our allies is extended 
deterrence which is as strong as ever.
    Senator Sessions. Thank you.
    I'm just not sure that this kind of political leadership is 
going to work in the way that it's projected. I do worry that 
if we draw our numbers too low, a lot of nations might well 
consider that they could, with a little investment and a period 
of years, be a peer-competitor of us with nuclear weapons and 
alter the balance of power in the world. We do have problems 
with that.
    Secretary Tauscher, I believe you were asked about 
Secretary Flournoy's comments recently, that need to be backed 
off on. But, it was reported in the Information Telegraph 
Agency of Russia-Telegrafonyc Agentstvo Svazii Soobshchenyu, 
February 15, that you told journalists in Russia that the 
United States had no plans to deploy missile defense elements 
in the Black Sea, to include Aegis ships and sea-based missile 
defense components. The Aegis BMD capability is currently 
installed on 4 cruisers and 16 destroyers, all Arleigh Burke-
class destroyers, and 9 Ticonderoga-class cruisers are planned 
to receive the capability. A significant portion of our fleet. 
Aegis-class ships have sailed into the Black Sea seven times 
over the past 5 years. The last such deployment was, however, 
in July 2009. Your comments are disturbing, because it would 
seem to indicate a new policy on deployments in the Black Sea. 
Certainly, we received Russian demands on missile defense that 
I think go beyond anything we should acquiesce in.
    So, are there any restrictions on the deployment in the 
Black Sea? Are you aware of any changes in the policy?
    Ms. Tauscher. No, Senator. There are no restrictions, and I 
was very clear. The question asked me if there was any 
permanent deployment of Aegis ships in the Black Sea, and I 
said, ``There are no--there isn't.'' There is not a policy to 
do that. I was very clear that we have had deployments of Aegis 
ships, most recently last summer, and that this is a decision 
that is going to go forward with cooperation. I think it's the 
Montreux Treaty.
    Senator Sessions. Are there any----
    Ms. Tauscher. But, there are no constraints.
    Senator Sessions. Including Aegis ships with missile 
defense systems.
    Secretary Miller? Dr. Miller? DOD, what's your 
understanding?
    Dr. Miller. Senator Sessions, that's correct. We have no 
plans to permanently deploy Aegis cruisers in the Black Sea but 
we have the option to position ships there, as consistent with 
the Montreux Convention.
    Senator Sessions. I certainly can understand that you don't 
always get well-quoted in foreign press, not even in American 
press. Sometimes you can be misquoted. It's important that we 
maintain that right. But, I have to say that we also were told 
that there would be no connection on missile defense deployment 
to the START negotiations. Before they even started, we, 
basically, undermined our ability to work with the Poles and 
Czechs and have been, from my perspective, on a very uncertain 
course, with regard to that.
    Maybe, Dr. Miller, first, you've also indicated that we are 
committed to ``the long-term goal of a world free of nuclear 
weapons,'' and that's in the NPR, and that the President has 
``directed a review of potential future reductions in--below 
the New START treaty levels,'' even further down. Can you 
assure us that an objective and careful analysis will be made 
before such decisions are made?
    Dr. Miller. Senator Sessions, yes. To reiterate what is 
stated in the NPR, the intention would be to conduct this 
analysis, have a hard look at deterrence requirements and a 
number of other factors, to consider any future reductions only 
after ratification and entry into force of the New START 
treaty.
    Senator Sessions. My understanding is that the Russians 
have absolutely no vision that nuclear weapons will be 
eliminated from the world. This is not something on their radar 
screen. So, we're not going to influence them, I think, by 
unilateral actions.
    With regard to our huge disparity in tactical weapons, and 
they are not covered at all in this treaty, it seems to me that 
proliferation the danger of a terrorist obtaining a nuclear 
weapon would be at least as great, if not greater, with regard 
to a tactical weapon than one that's in a strategic situation. 
Would you agree?
    Dr. Miller. Senator Sessions, in general, I would agree. We 
do think it's still important to move forward with the New 
START treaty and to strengthen strategic stability. At the same 
time, we would look forward not just to further reductions in 
tactical nuclear weapons, as you suggested, but also would look 
forward to Russia taking further steps to improve the security 
of its tactical nuclear weapons, including their movement 
deeper back into the interior of the country.
    Senator Sessions. These are very serious matters, and I 
want to be sure that our minds are clear that the agreements 
and treaty-signings, and happy days that those produce, don't 
color our view of the reality of the dangerous world that we 
live in. In my view, one of the certain ways to expand nuclear 
proliferation to a host of nations in the world, if they lose 
confidence in the willingness of the United States to utilize a 
nuclear umbrella to protect them. We have allies and friends 
who could build nuclear weapons easily. If they feel, at any 
point, that we've lost our will to maintain sufficient numbers 
or to use them in their defense, they will have no choice, 
probably, but to decide to build systems of their own. So, the 
danger is that the risk we could have is that policies hoping 
to reduce weapons and reduce proliferation could actually 
create the other.
    I guess you've thought about that? Dr. Miller? Ms. 
Tauscher?
    Dr. Miller. Senator Sessions, yes, we certainly have. We 
consulted extensively with allies and partners during the 
conduct of the NPR, as well as during the New START treaty 
negotiations. We have expressions of support for both the NPR 
and New START treaty from allies and partners across the world. 
I'd be happy to provide some of those for the record, if you'd 
like.
    Senator Sessions. I think there are some that are nervous. 
I'm aware of that. Would you not agree?
    Dr. Miller. Sir, we certainly have allies and partners who 
are nervous about the security situation in which they find 
themselves. I believe that the expressions that we've heard 
from both allies and partners, from multiple regions, have been 
to increase their confidence in the U.S. commitment to their 
security, including the U.S. nuclear umbrella.
    Senator Sessions. I understand that some are nervous.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator Bingaman.
    Senator Bingaman. Thank you very much.
    I appreciate all of your being here.
    Let me just revisit one issue that General Chilton talked 
about earlier. My understanding is that when President Bush 
entered into the Moscow Treaty, you referred it, back in 2003, 
there were no verification measures contained there. The 
thinking was that the verification measures in the START treaty 
would apply or would meet the need. Now START has expired, so 
we have no verification measures, at the current time, with 
regard to the Moscow Treaty. Am I right in that?
    General Chilton. That's correct, Senator. That's my 
understanding.
    Senator Bingaman. Yes. So, one of the necessities that we 
need to think about, in regard to the New START treaty, is the 
need to put back in place these verification measures, or a new 
set of verification measures, and that's what I understood 
Under Secretary Miller to talk about, in your comments earlier.
    Let me just go to another issue. I think one of the goals 
in the NPR is to increase the decision time for launch that the 
President would have. I would ask, Dr. Miller, if you could 
explain what reviews are underway or what actions might be 
possible to accomplish that. Is there really something 
happening to increase the decision time the President would 
have before he would have to decide whether to launch or not?
    Dr. Miller. Senator Bingaman, there are two elements to 
thinking about increasing decision time and thinking about how 
to improve the quality of information available, whatever the 
decision time.
    The first is that we are looking at improvements at our 
nuclear command-and-control system. We are making some 
investments now that were decided during the NPR, and are 
considering additional steps that it would be more appropriate 
to discuss in a classified setting.
    The second is that as we move forward with a possible ICBM 
follow-on, we will look at options that have the possibility of 
survivability without requiring launch-under-attack or launch-
on-warning, as would be the case with our current silo-based 
ICBMs. We think the current ICBMs are extremely stable and 
stabilizing, particularly as we deMIRV to one warhead each. 
But, we will look at concepts that would make them even more 
survivable over time, which would allow them to be part of a 
Reserve Force.
    Senator Bingaman. Okay.
    Dr. Miller. Those are really the two principal areas that 
we have--that we've looked at.
    Senator Bingaman. Dr. Miller, my understanding is that NATO 
is currently debating whether or not the deployment of this B-
61 gravity bomb, how will decisions by NATO affect the life-
extension program that NNSA is engaged in with regard to that? 
How will it affect NNSA's budget going forward?
    Dr. Miller. Senator Bingaman, you are correct that NATO is 
currently discussing the future of the NATO nuclear deterrent. 
Irrespective of the decisions that are taken at NATO, the 
United States will continue to have a requirement for the B-61, 
both for our heavy bombers associated with the strategic 
deterrent, also for the F-35 Joint Strike Fighter (JSF) that is 
moving forward now, and we're planning on a dual-capability for 
that aircraft that would be available in the 2017 timeframe.
    General Chilton. Senator, if I could add to that. There has 
been a lot of, I think, misunderstanding here. We need the B-
61, as Dr. Miller said, both for the B-2 bomber and for our 
current dual-capable aircraft. Folks have tried to make a 
linkage between the B-61 life-extension program and NATO 
decisions and F-35 JSF schedule. They are not linked. We need 
to move out on the B-61 life-extension program. That includes 
current year fiscal year 2010 reprogramming that will be 
required to get us on schedule so that we can complete the B-61 
in time to then, in 2017, move on to the next problem we know 
we will have to address, which will be the W-78 warhead. We are 
up at a tipping point here, a critical time--and I'll defer to 
Mr. D'Agostino on this schedule-wise, infrastructure-wise, and 
funding-wise, and it's time for action on the B-61.
    I would close by saying it will be the first real 
opportunity to add the enhanced security and safety features, 
as well as increasing the effectiveness of the warhead, that 
are in line with the President's statements that we've seen 
here in the NPR.
    Mr. D'Agostino. If I could just add.
    Senator Bingaman. Mr. D'Agostino, did you have a comment?
    Mr. D'Agostino. Absolutely. To back up what the General 
said, the B-61 requirement still exists for me to maintain and 
take care of this warhead, as you've heard, from a requirements 
standpoint. It is one of our oldest warheads in the stockpile. 
It's the mainstay of our bomber leg of the deterrent. We know 
we have components that are aging out, and they have to be 
addressed.
    The sequencing, as the General described, is very 
important. The plan is clear: finish the production work on the 
W-76, look at what we need to do at the B-61 concurrently. 
That's why we need to start now on that. When the production 
work on the W-76 warhead tails off, the sequencing is perfect 
for taking care of our aging issues and concerns on the B-61. 
That'll pick up in 2017.
    Senator Bingaman. Let me ask, on this W-78, I gathered from 
Dr. Miller's comments that one of the things being considered 
is developing that as a common warhead for the ICBM and the 
SLBMs. How much more complicated is that than just a straight 
life extension of the W-78?
    Mr. D'Agostino. Why don't I start, and then if General 
Chilton would like to add, that'd be fine.
    It clearly is going to be more technical work than just 
doing one life-extension. But, we do know, in the aggregate, 
it's better for us to look at this opportunity to consolidate, 
because there are, potentially, some very significant savings 
associated with costs of only doing one life-extension to take 
care of two warheads. Real opportunities to reduce the numbers 
and types of warheads, when we look at commonality and the cost 
piece, and the real opportunity, frankly, to put the types of 
safety and security pieces in. It's going to be a little bit 
more challenging technically, but absolutely worth the study. 
In fact, that's what our 2011 budget proposes to do, is start  
that  effort  to  study  options  that  we  have  to  do  with  
the  W-78.
    General Chilton. I would just echo the point that the study 
is very important and the promise of the study, with an 
adaptable-type warhead like this, is that, if we can 
successfully do this, that I would be comfortable, and I'm sure 
future STRATCOM commanders would be comfortable, with reducing 
the number of warheads we retain in the nondeployed hedged 
status. So this is proceeding forward. Being able to look 
across the spectrum of refurbish, reuse, and replace is what 
enables this type of study to go forward.
    Senator Bingaman. Thank you very much.
    My time is up.
    Chairman Levin. Thank you, Senator Bingaman.
    Senator Bill Nelson.
    Senator Bill Nelson. Good morning.
    General Chilton, after having some conversations with 
General Cartwright, the Vice Chairman, and General Kehler, the 
head of Air Force Space Command, they are quite concerned about 
the recent decision by the National Aeronautics and Space 
Administration (NASA) budget, which originated with the science 
advisor having not consulted DOD. They suddenly proposed the 
elimination of the testing of the solid rocket motor, known as 
the Ares 1-X. It is a derivative of the solid rocket motor of 
the Space Shuttle, which has four segments. It adds a fifth 
segment. There has been one flight test. There is another 
rocket that is prepared for test. The question before us is 
whether or not to continue the testing through fiscal year 2011 
of the Ares 1-X, instead of canceling it, as the President's 
budget proposes.
    The concern, as expressed by General Cartwright and General 
Kehler, is that by shutting down a major part of solid rocket 
production, it then exponentially increases the cost of the 
remaining solid rocket motors that DOD has to acquire for the 
SLBMs and other ballistic missiles that we have in silos.
    Since you're the STRATCOM commander, I'd like for you to 
give your opinion.
    General Chilton. Thank you, Senator Nelson. Senator Nelson, 
as you are well aware, the solid rocket motor--large solid 
rocket motors, are very complicated devices. They appear to 
work quite simply, but, indeed, they give us a great advantage, 
having the technology and industrial base that we have today, 
to be able to produce them. As the STRATCOM commander, my 
concern, that I know acquisition, technology, and logistics is 
taking a close look at in DOD, is what impact this decision 
might have on the industrial base as we look to the future.
    We're committed to look at a follow-on to the land-based 
strategic deterrent, the Minuteman III. Although the Navy right 
now has decided to continue with the D-5 missile during the 
transition to the follow-on Ohio-class, I would anticipate in 
the future there will be requirements for a follow-on to that 
missile at some point, as well.
    Are we postured correctly, from an industrial-base 
standpoint, to sustain this technology that I believe will be 
important for the strategic deterrent for many years to come. 
That's a question that I think we need to take a hard look at, 
Senator.
    It goes beyond just cost, in my view, though. Although cost 
would certainly, I would imagine, transfer over towards those 
other programs. But, it is really bigger than cost, in my view.
    Senator Bill Nelson. In response to your answer about 
industrial base as well as cost, help me understand someone who 
might say that the diameter of the continued testing on Ares 1, 
since it's a big rocket, is not the same as the diameter on a 
D-5 or a follow-on to a Minuteman III. Does that have any 
bearing? Because, would it not still affect the same industrial 
base that you're talking about?
    General Chilton. Senator, I guess I don't understand the 
argument. Again, a large solid rocket motor has the issues of 
getting the chemistry right and the production of a solid 
propellant. It has issues with liners, it has issues with 
inhibitors, it has issues with guidance and control. Thrust-
vectoring systems with the solid rocket motor are not simple to 
do, casing issues, et cetera. All of these are very complicated 
components of any large solid rocket motor, whether it be the 
D-5, the Minuteman III, the Shuttle SRBs, or any follow-on to 
that. This is what I'm worried about, that we don't lose that 
formula and expertise for being able to address all the 
engineering challenges associated with all of those things, not 
to mention the joints between segments, as we go forward.
    Senator Bill Nelson. I think the overall DOD has been taken 
by surprise in this NASA announcement to cancel. I have clearly 
let it be known my displeasure. Here it comes back to one hand 
of the Government not knowing what the other hand of the 
Government is doing. There should have been this kind of 
consultation.
    I would encourage you, as one of the major commanders, to 
weigh in your feelings about this, because there's going to 
have to be a decision made very soon, with regard to whether or 
not this industrial base is going to continue. When I say very 
soon, I have put additional money in the budget resolution, 
that we are in committee today on, to give some flexibility for 
the future that NASA could continue this testing. But, 
decisions are going to be made come June in our authorizing 
committee. They're going to be made come July in the 
Appropriations Committee. So, this is upon us. I urge you, use 
all deliberate dispatch.
    Madam Secretary, I just want to say that, for any one of 
our colleagues to ascend to the heights of power and prestige 
that you have, my compliments to you. I want to ask you about 
what progress you thought was made, in this recent Nuclear 
Security Summit, on the goal of a nuclear lockdown on the 
proliferation.
    Ms. Tauscher. Thank you very much, Senator. It's good to 
see you. I'm honored to be here.
    I think that, first of all, this was an historic summit. It 
was the first time in decades that we've had so many heads of 
state come. This is an issue that, when your former colleague, 
President Obama, was in the Senate, was something that he 
believed to be a primary threat to the American people and the 
stabilization of the world community. The idea that there were 
more states acquiring nuclear weapons than ever before, and 
that nuclear security has become an issue that we all have to 
deal with. It's not just the responsibility of the P5 nuclear-
weapon states, but it's everyone's responsibility, because 
everyone has to patrol their borders, everyone has to deal with 
export controls, everyone has to deal with the ambitions of 
terrorists and others that are around the world.
    I think that the deliverables at the summit were very 
significant. There were two big baskets of deliverables. The 
first one was, the United States and Russia, after 10 years, 
signed the Plutonium Disposition Agreement, which commits both 
countries to moving toward elimination of plutonium, enough 
plutonium to make 17,000 nuclear weapons. So, this is a sizable 
commitment, to eliminate this plutonium.
    The second was a basket of highly-enriched uranium (HEU) 
offerings from countries like Chile, Canada, Mexico, and 
Ukraine, where they will eliminate their HEU and actually have 
both the United States and Russia work to eliminate that HEU.
    I think that it was significant, from a policy standpoint. 
It was significant, from the fact that there were real 
deliverables, of lessening significantly both plutonium and HEU 
that is in the world.
    I think, probably most significantly, it added to the 
debate and heightened the sense of awareness, to average 
Americans and people all over the world, that this is, indeed, 
a 21st century problem that is going to take lots of people 
and, frankly, a lot of political will to abate. But, these 
ambitions of states to get nuclear weapons, and making sure 
that we have secured both the know-how, the material, and the 
weapons themselves, significantly, both by diminishing their 
numbers but also by making investments in keeping them secure, 
is a priority of the President and, certainly, those heads of 
state were there and many others.
    I think it was a very big success. The Republic of Korea 
has agreed to host the 2012 Nuclear Security Summit. This was 
originally an idea that was meant to be a one-time thing. But, 
it was such a big success and, I think, accrued to the American 
people such big national security gains, that we're very happy 
to see the Republic of Korea host the 2012 Nuclear Security 
Summit.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    You don't have any additional questions, I don't either.
    We are very grateful to this panel for your terrific work 
in this area. You have proposed a number of documents here and 
important treaties and reviews, which will set the direction of 
this country for decades, in an area that is of critical 
importance to the world, to world security, to the fight 
against terrorism. Your involvement, all of you, is a major 
contribution to our security, and we're grateful for it. We're 
grateful for your being here today.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                    strategic arms reduction treaty
    1. Senator Burris. Secretary Tauscher, Dr. Miller, General Chilton, 
and Mr. D'Agostino, the New Strategic Arms Reduction Treaty (START) 
agreement addresses the nuclear stockpile levels and the number of 
weapons each nation can maintain. Does the new START agreement address 
the enforcement of this agreement?
    Secretary Tauscher and Dr. Miller. The New START treaty limits 
numbers of deployed warheads and their delivery vehicles. The treaty 
contains a comprehensive verification regime to monitor compliance with 
its requirements. The New START treaty created the Bilateral 
Consultative Commission (BCC) to support implementation of the treaty 
provisions. The BCC will provide a forum for discussion and resolution 
of compliance issues, implementation questions, and continued strategic 
dialogue. Ultimately, a party may withdraw from the treaty if 
extraordinary events jeopardize its supreme interests. This could 
include a material breach by the other party's noncompliance with 
obligations imposed by the treaty.
    General Chilton. Yes. The New START treaty establishes the BCC as a 
compliance and implementation body that will meet at least twice each 
year, unless otherwise agreed. Compliance and implementation questions 
may be raised by either party in the BCC.
    Mr. D'Agostino. Yes, the New START treaty establishes central 
limits for strategic offensive arms that must be met within 7 years 
after entry into force, and provides a comprehensive regime to verify 
each party's compliance with these limits and with the other provisions 
of the treaty. The central limits are: 1,550 for deployed strategic 
warheads; 700 for deployed intercontinental ballistic missiles (ICBM), 
submarine-launched ballistic missiles (SLBM), and heavy bombers 
equipped for nuclear armaments; and 800 for deployed and nondeployed 
ICBM launchers, SLBM launchers, and heavy bombers. The verification 
regime to assess compliance is based in part on the experiences gained 
by the United States and Russia through the implementation of the 1991 
START treaty, and includes elements that are specifically tailored to 
verify the limitations and provisions of the new treaty. Any concern 
identified regarding a party's compliance with its treaty obligations 
can be raised by the other party through the treaty's BCC, which is the 
compliance and implementation body that will meet at least twice each 
year, unless otherwise agreed.

    2. Senator Burris. Secretary Tauscher, Dr. Miller, General Chilton, 
and Mr. D'Agostino, has there been any discussion about how nations who 
are party to the agreement will ensure all parties are meeting their 
obligations?
    Secretary Tauscher and Dr. Miller. The New START treaty contains 
detailed monitoring and transparency provisions that supplement 
National Technical Means (NTMs) to form an effective verification 
regime. There are provisions for data exchanges and notifications 
regarding strategic offensive systems and facilities covered by the 
treaty, up to 18 onsite inspections each year, and exhibitions of new 
systems entering treaty accountability. The Protocol to the treaty 
further elaborates the rights and obligations associated with the 
verification measures set forth in the treaty, while annexes to the 
treaty lay out key details of how each of the verification measures is 
to be implemented.
    The New START treaty created the BCC to promote the objectives and 
implementation of the treaty provisions. The BCC will provide a forum 
for discussion and resolution of compliance issues, implementation 
questions, and continued strategic dialogue. Issues that are not 
resolved in the BCC can be escalated to diplomatic channels and if 
necessary to the highest levels of government. If there were a material 
breach by the other party arising from noncompliance with obligations 
imposed by the treaty, international law provides that a party can 
suspend its obligations in whole or in part. Ultimately, a party may 
withdraw from the treaty if extraordinary events jeopardize its supreme 
interests.
    General Chilton. Yes. Verification measures have been built into 
the New START treaty to monitor compliance. The treaty contains a 
verification regime that builds on lessons learned from 15 years of 
implementing START. This regime includes unencumbered use of NTMs, data 
exchanges and notifications regarding strategic systems and facilities, 
two types of onsite inspections, exhibitions, and, as a transparency 
measure, telemetry exchanges. Specifically:

        <bullet> NTM - The treaty provides for the use of and non-
        interference with NTM of verification (e.g., satellites). There 
        are explicit provisions that prohibit interference with NTM and 
        the use of concealment measures than may impede monitoring by 
        NTM.
        <bullet> Data Exchanges and Notifications - The United States 
        and Russia will exchange data on numbers, locations, and 
        technical characteristics of strategic weapon systems and 
        facilities that are subject to the treaty. Additionally, each 
        side will provide regular notifications and data updates.
        <bullet> Onsite Inspections - There are two types of 
        inspections.

                <bullet> Type One inspections focus on ICBM bases, 
                submarine bases, and air bases; that is sites 
                containing both deployed and nondeployed strategic 
                systems.
                <bullet> Type Two inspections focus on sites with only 
                nondeployed strategic systems.
                <bullet> Inspections include:

                        <bullet> confirming the number of reentry 
                        vehicles on deployed ICBMs and deployed SLBMs,
                        <bullet> confirming numbers related to 
                        nondeployed launcher limits,
                        <bullet> counting nuclear weapons onboard or 
                        attached to deployed heavy bombers,
                        <bullet> confirming weapon system conversions 
                        or eliminations as well as facility 
                        eliminations.

                <bullet> Each side is allowed to conduct 18 inspections 
                annually: 10 Type One and 8 Type Two.

        <bullet> Unique Identifiers - Each ICBM, SLBM, and heavy bomber 
        will be assigned a unique identifier (alphanumeric number), 
        which will be included in the applicable notifications and 
        database which may be confirmed during inspections.
        <bullet> Telemetric Information - During ICBM and SLBM flight 
        tests, measurements of various technical parameters are made to 
        monitor missile performance. To enhance transparency and 
        supplement verification provisions, the parties have agreed to 
        an annual exchange of telemetric information on a parity basis, 
        for up to five ICBM and SLBM launches per year.

    Mr. D'Agostino. Yes, the verification regime developed for the New 
START treaty provides the United States and Russia the means to verify 
each other's compliance with their treaty obligations. The verification 
regime includes data exchanges and notifications regarding strategic 
offensive arms and facilities covered by the treaty, two types of 
onsite inspections, exhibitions, and provisions to facilitate the use 
of NTMs for verifying compliance with provisions of the treaty. Either 
party may raise questions relating to treaty compliance through the 
BCC, which is the treaty's compliance and implementation body that will 
meet at least twice each year, unless otherwise agreed.

                          iran and north korea
    3. Senator Burris. Secretary Tauscher, Iran and North Korea have 
been pursuing technology for nuclear weapons. Was there any discussion 
about the fact that Iran and North Korea are trying to develop nuclear 
weapons?
    Secretary Tauscher. While the United States and Russia frequently 
discuss the problems of Iran and North Korea pursuing development of 
nuclear weapons, this was not a topic of discussion in the negotiation 
of the bilateral New START treaty.

    4. Senator Burris. Secretary Tauscher, will the New START agreement 
change if Iran and North Korea manage to develop nuclear weapons?
    Secretary Tauscher. No. The New START treaty is a bilateral 
agreement designed to stabilize the strategic balance between the 
United States and the Russian Federation at lower levels of nuclear 
forces. It is not linked to development of nuclear weapons by other 
countries, including Iran or North Korea. The United States will 
sustain safe, secure, and effective nuclear forces to deter any 
potential adversary as long as nuclear weapons exist.

                national nuclear security administration
    5. Senator Burris. Mr. D'Agostino, you mentioned that the National 
Nuclear Security Administration (NNSA) intends to coordinate with the 
Department of Defense (DOD) in order to develop a new Stockpile 
Stewardship and Management Plan (SSMP) to Congress. When do you 
anticipate being able to present this plan, and what key points will it 
address?
    Mr. D'Agostino. The NNSA SSMP was delivered to Congress on June 16, 
2010. This plan details our approach for modernizing the 
infrastructure, managing the stockpile, and sustaining the science and 
technology base that underpins the nuclear security enterprise. The 
SSMP is aligned with the 2010 Nuclear Posture Review (NPR) Report, the 
congressionally mandated Stockpile Management Program, and U.S. 
nonproliferation goals, and is the NNSA plan for maintaining a safe, 
secure, and effective nuclear stockpile without a need to resume 
nuclear testing.
    As identified in the NPR and detailed in the SSMP, our long-term 
strategy is to manage our aging stockpile through infrastructure 
modernization, warhead life extensions, and a world-class science and 
technology base. Two major production facilities are essential to the 
infrastructure modernization effort: the Chemistry and Metallurgy 
Research Replacement nuclear facility at Los Alamos for plutonium 
research and development and the Uranium Processing Facility at Y-12 in 
Tennessee where we carry out HEU operations. Warhead life extensions 
will be carried out on a case-by-case basis, seeking to increase 
stockpile safety, security, and effectiveness. This plan does not 
pursue new military capabilities or missions for our warheads, nor will 
we perform nuclear tests. Finally, accomplishing these SSMPs requires a 
highly capable Federal and contractor workforce with the specialized 
skills needed to sustain the nuclear deterrent and support-related 
national security goals.
                                 ______
                                 
               Questions Submitted by Senator John McCain
        affordability of implementing the nuclear posture review
    6. Senator McCain. Dr. Miller, General Chilton, and Mr. D'Agostino, 
the NPR sets forth a broad vision that must not be viewed outside of 
the realm of affordability. As I mentioned earlier, the cost alone for 
modernizing, both the nuclear weapons complex and the triad, is 
substantial. As we move to reduce our nuclear stockpile, this 
modernization effort becomes all the more important. Factoring in the 
cost of a missile defense and a prompt global strike--both essential 
and critical, but also costly, programs--the overall budget outlook 
seems to suggest steady increases for the foreseeable future. What is 
the near-term and long-term affordability of implementing the NPR?
    Dr. Miller. The cost of implementing the NPR is affordable. Current 
best-estimates are provided in the administration's report prepared in 
response to section 1251 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2010.
    General Chilton. The NPR clearly articulates the enduring value of 
the triad in our nuclear posture. At the same time, we are facing a 
significant period of recapitalization of the nuclear enterprise. It 
will take the commitment of the administration and Congress to ensure a 
safe, secure, and effective (albeit smaller) deterrent force. We are 
working very hard to carefully study the requirements and tradespace to 
make the most cost-effective investments, while looking for leveraging 
opportunities and innovative ways to meet our national security 
commitments.
    Mr. D'Agostino. The President's budget request for fiscal year 2011 
provides the resources for NNSA to accomplish its mission in fiscal 
years 2011-2015. This funding is both essential and necessary for 
regaining key NNSA nuclear weapons capabilities and sustaining the core 
workforce and infrastructure that underwrite the nuclear mission. The 
President's submittal demonstrates a long-term, executable commitment 
to a safe, secure, and effective nuclear deterrent. I recommend the 
long-term program outlined in the SSMP be adopted by Congress; it will 
put NNSA on the path to delivering a safe, secure, and effective 
nuclear deterrent.

    7. Senator McCain. Dr. Miller, General Chilton, and Mr. D'Agostino, 
does the administration intend to upgrade or modernize each leg of the 
triad?
    Dr. Miller. DOD plans to invest in each leg of the triad to ensure 
that existing capabilities are adequately sustained with essential 
upgrades and modifications. Additionally, DOD will seek to modernize 
systems, as needed, to ensure continuing deterrent capability over the 
long-term.
    General Chilton. The Services are making investments to maintain a 
credible nuclear force. Specific actions will be reported to Congress 
as directed by section 1251 of the 2010 NDAA. U.S. Strategic Command 
(STRATCOM), with the assigned mission of nuclear deterrence, 
participates in the process of identifying requirements and advocating 
for funding for modernization and sustainment of triad forces and 
weapons. The President's fiscal year 2011 budget provides adequate 
initial funding to address our Nation's most critical needs to update 
and modernize our deterrent and global strike capabilities.
    Mr. D'Agostino. Over the next 3 decades every nuclear warhead now 
in the stockpile will require some level of technical attention in 
order to ensure their continued safety, security, and effectiveness. 
The technical attention required for each warhead type will vary. Some 
will require a full life extension while others will only involve the 
exchange of limited life components. The NNSA will sustain the warheads 
for every leg of the nuclear triad through a comprehensive process of 
life extension programs. For each of these life extensions the full 
spectrum of options will be studied on a case-by-case basis, and the 
national laboratories will offer their best technical advice for 
extending the life of a warhead and improving it's safety, security, 
and effectiveness without adding any new military capabilities, as 
outlined in the NPR.

                          future of the triad
    8. Senator McCain. Dr. Miller and General Chilton, the NPR states 
that the United States should retain a smaller nuclear triad. With the 
exception of the next generation ballistic missile submarine, the NPR 
says very little about long-term modernization efforts. It recognizes 
that decisions need to be made on the next generation ICBM and the next 
generation bomber, but cites little urgency in making those decisions. 
Given the guidance set forth in the NPR, do you believe our nuclear 
force structure will include bombers, ICBMs, and ballistic missile 
submarines 25 years from now? If so, when must a decision be made on 
pursuing a follow-on ICBM and a follow-on bomber?
    Dr. Miller. U.S. nuclear force structure 25 years from now will 
depend greatly on any changes to the geopolitical situation, and any 
future arms control agreements. That said, a diverse force structure 
has significant advantages for hedging against potential technical 
problems or vulnerabilities. The Air Force plans to sustain the 
Minuteman III through 2030 as directed by Section 139 of the John 
Warner NDAA for Fiscal Year 2007, and will initiate studies of possible 
ICBM follow-on systems in fiscal years 2011-2013. Similarly, the Air 
Force will retain the B-52 for nuclear mission requirements through 
2035 and will provide plans for a follow-on bomber along with the 
President's budget submission for fiscal year 2012. The Navy has 
already initiated research and development for the next generation 
ballistic missile submarine, funding for which began in fiscal year 
2010.
    General Chilton. The NPR validates the enduring value of the triad 
and its complementary capabilities in securing the peace and preventing 
major conflicts. As we sustain and modernize the triad, our Nation will 
continue to require a nuclear-capable bomber leg's inherent flexibility 
to address a wide variety of possible adversaries and contingencies. We 
are participating in the Office of the Secretary of Defense's (OSD) 
Long-Range Strike study to identify and assess necessary attributes and 
capabilities for the next long-range bomber that will meet combatant 
commanders' needs and ensure no gap in capabilities. We anticipate that 
the long-range strike study will be completed in time to inform 
decisions for the upcoming fiscal year 2012 budget submission. 
Regarding an ICBM follow-on system, we anticipate initial studies will 
begin in fiscal year 2011 and an analysis of alternatives will follow 
shortly thereafter. We are working to ensure life extension upgrades 
and technology development efforts required to support the Minuteman 
III from 2020 through 2030 will leverage into a follow-on system.

                                  f-35
    9. Senator McCain. General Chilton, the NPR confirms that the Air 
Force will retain a dual, nuclear and conventional, capable fighter as 
it replaces the F-16s with the F-35 Joint Strike Fighter. How critical 
is the timely delivery of the dual-capable F-35 to the extended 
deterrence mission?
    General Chilton. It is important to preclude a gap in our extended 
deterrent capabilities. I support Service efforts to field the dual-
capable version of the F-35 before end-of-life for the current dual-
capable version of the F-16. This is a top priority for both STRATCOM 
and U.S. European Command. I also support Service efforts to move 
forward with a limited life extension program of the F-16 fleet, which 
will provide options to mitigate F-35 schedule risk. The NPR clearly 
articulates that nuclear-capable fighter aircraft forward-based in 
Europe are enduring, visible manifestations of our Nation's extended 
deterrence commitment to NATO, and a key component of a broader 
strategy to accomplish U.S. nonproliferation and deterrence goals.

     new strategic arms reduction treaty limits and force structure
    10. Senator McCain. General Chilton, when will Congress be provided 
the details of the new nuclear force structure as it relates to the New 
START?
    General Chilton. Force structure details were provided to Congress 
as part of the NDAA for Fiscal Year 2010 1251 report and as part of the 
submission package when New START was presented for ratification.

    11. Senator McCain. General Chilton, has the analysis been done to 
support this new force structure and can the committee be provided such 
analysis?
    General Chilton. Analysis was done throughout the NPR and New START 
process. I defer to OSD for release of the analysis.

    12. Senator McCain. General Chilton, in order to meet the force 
structure levels for the New START, I assume DOD will need to adjust 
levels within one or more legs of the triad. If so, which aspects and 
why?
    General Chilton. Yes, some changes in each leg of the triad will be 
necessary. We need to continue the conversions of the B-1B to 
conventional use only and then exhibit those changes and conduct 
exhibitions of the SSGNs and missile defense silos at Vandenberg to 
remove from New START accountability. We must also eliminate other 
delivery vehicles (e.g., 50 Peacekeeper silos, 50 MMIII silos at 
Malmstrom and B52G and B52H at Davis Monthan) which have been 
previously removed from the nuclear forces but which were accountable 
under START I. Beyond these issues, minor force modifications maybe 
required. This information was provided to Congress as part of the NDAA 
for Fiscal Year 2010 1251 report and as part of the submission package 
when New START was presented for ratification.

                       consultations with allies
    13. Senator McCain. Secretary Tauscher and Dr. Miller, please 
describe the consultation that we had with our allies and friends 
before determining our nuclear posture, force reductions, and extended 
deterrence.
    Secretary Tauscher and Dr. Miller. International perspectives on 
U.S. nuclear policy and posture were significant components in the NPR 
analysis and are reflected in the final document. The NPR's 
International Dimensions Working Group was created to engage with our 
allies and partners regarding their perceptions of the U.S. nuclear 
policy and posture. The NPR team held more than 60 consultations with 
more than 38 individual countries as well as the North Atlantic Council 
of the NATO alliance, and 11 other countries provided written input. 
Allies and partners were engaged frequently during the NPR process.

    14. Senator McCain. Secretary Tauscher and Dr. Miller, did any of 
our friends and allies raise any concerns about our new nuclear posture 
and proposed cuts to our nuclear arsenal?
    Secretary Tauscher and Dr. Miller. Allies and partners were engaged 
frequently during the NPR. International reactions to the NPR since its 
publication have been very positive, and the administration has 
received broad support for the recommendations of the NPR as well as 
proposed reductions under the New START treaty.

    15. Senator McCain. Secretary Tauscher and Dr. Miller, please 
describe how and in what way the NPR was shaped by the ideas and 
concerns of our allies who depend on the U.S. nuclear umbrella for 
their own security.
    Secretary Tauscher and Dr. Miller. In terms of process, 
international perspectives on U.S. nuclear policy and posture were 
significant components in the NPR's analysis and are reflected in the 
final document. The NPR 's International Dimensions Working Group was 
created to engage with our allies and partners regarding their 
perceptions of U.S. nuclear policy and posture. The NPR team held more 
than 60 consultations with more than 38 individual countries as well as 
the North Atlantic Council of the NATO alliance, and 11 other countries 
provided written input.
    In terms of product, the NPR report reflects a strong commitment to 
the U.S. nuclear umbrella. ``Strengthening regional deterrence and 
reassuring U.S. allies and partners'' is one of the NPR's five pillars, 
and two of the NPR's key recommendations are retaining the capability 
to forward-deploy U.S. nuclear weapons on tactical fighter-bombers and 
heavy bombers, and to proceed with full-scope life extension for the B-
61 bomb.

           nuclear proliferation review and new weapon design
    16. Senator McCain. Mr. D'Agostino, the NNSA's British counterpart, 
the Atomic Weapons Establishment, cites maintaining a capability to 
design a new weapon as a cornerstone of its mission. Why do you suspect 
the British view that maintaining the capability to design a new 
warhead is critical?
    Mr. D'Agostino. The known capability to design a workable nuclear 
weapon is an essential aspect which underpins the credibility of both 
U.S. and the U.K. nuclear deterrence. Our position on this topic is the 
same as the United Kingdom's: we will unambiguously retain this 
ability. Instead of honing and demonstrating these skills through an 
ongoing program to design, develop, and test new nuclear weapon 
designs, such as was done during the Cold War, the NNSA and the United 
Kingdom have both invested in strengthening our science, technology, 
and engineering (ST&E) capabilities to sustain these core skills.
    As the stockpile decreases in size, the deterrence role of ST&E 
increases in importance. Our credibility relies on the active 
engagement of scientists and engineers to understand the aging 
stockpile in all its complexities, and their ability to respond to 
future technical and global events. The vigorous engagement of ST&E 
enables us to annually assess the stockpile, resolve significant 
finding investigations (discovered departures from design and/or 
manufacturing specifications), extend nuclear weapon lifetimes, assess 
other Nations' nuclear capabilities, and dismantle retired weapons. 
This very challenging technical program and the modern facilities that 
are supported in the President's budget will serve to attract and 
maintain the highly-trained and motivated workforce needed to sustain 
nuclear deterrence, as well as other nuclear and energy security 
missions.

    17. Senator McCain. Mr. D'Agostino, in contrast to the British, the 
recently released NPR states that the ``United States will not develop 
new nuclear warheads.'' Do you believe that this statement would 
foreclose all future considerations to design a new weapon if the need 
arose?
    Mr. D'Agostino. The United States has made the decision not to 
design and produce new warheads; however, we will preserve our 
capability for doing so. The capabilities needed to design a new 
warhead include knowledgeable designers, along with a responsive, 
capable research and development and manufacturing infrastructure. 
These are the same capabilities and skill sets utilized when completing 
weapon life extensions. The NPR recognized the need for increased 
investment in the Nuclear Security Enterprise stockpile, 
infrastructure, and ST&E. The decision not to design new warheads 
should not imply the United States would be unable to do so should 
national security require it in the future.

    18. Senator McCain. Mr. D'Agostino, are there any concerns that as 
a result of this declaration that we will no longer maintain the 
ability to design a new weapon?
    Mr. D'Agostino. See response to question 17. I am confident that 
the Stockpile Stewardship and Management path upon which we have 
embarked sustains our capabilities to respond to future world events if 
necessary.

    19. Senator McCain. General Chilton, in your best military judgment 
and advice, do you believe that it is prudent to advocate for 
eliminating the capability to design a new weapon?
    General Chilton. In the context of sustaining a safe, secure, and 
effective stockpile, I believe all options should be validated during 
concept, design, and cost studies. Both the NPR and the 
congressionally-directed Strategic Posture Review support considering 
the full range of life extension approaches to ensure the safety, 
security, and effectiveness of our stockpile. I believe we must 
preserve sufficient flexibility to meet mandated stockpile management 
goals. Ultimately, replacement with a new design that uses previously 
tested components might be necessary to maintain a safe, secure, and 
effective stockpile. As the United States continues to reduce its 
nuclear arsenal, we must maintain effective capabilities to support 
nuclear weapons nonproliferation activities, and provide expert 
assessment of other nations' nuclear weapons programs in support of 
non-proliferation goals.

           department of defense infrastructure contribution
    20. Senator McCain. Dr. Miller and Mr. D'Agostino, with the release 
of the NPR, the Secretary of Defense announced that DOD will be 
transferring $5 billion over the next 5 years to the Department of 
Energy (DOE) to address infrastructure modernization needs. This 
increase is both welcome and absolutely necessary to supplement 
significant long-term increases in DOE's own budget. How will DOD 
funding be utilized by the NNSA?
    Dr. Miller. The DOD transfered $4.6 billion of its topline to the 
NNSA's Weapons Activities appropriation over the period of fiscal years 
2011-2015. By mutual agreement, this transfer will support funding for 
the following:

        <bullet> Design and initial construction of the Chemistry and 
        Metallurgy Research Replacement Nuclear Facility at Los Alamos 
        and the Uranium Processing Facility at Oak Ridge;
        <bullet> Increased plutonium manufacturing capacity at the PF-4 
        facility at Los Alamos;
        <bullet> Restoration of production rates for the W76 SLBM 
        warhead to meet Navy requirements;
        <bullet> A B61 bomb life extension program that meets safety, 
        security, and reliability requirements on DOD timelines;
        <bullet> Initiation of a life extension program for the W78 
        ICBM and warheads; and
        <bullet> A revitalized warhead surveillance effort and 
        associated science and technology support.

    In addition, the DOD transferred another nearly $1.1 billion of its 
top-line over fiscal year 2011-2015 for Naval Reactors, to support 
reactor design and development.
    Mr. D'Agostino. The DOD transferred almost $4.6 billion in top-line 
over the period fiscal years 2011-2015 to the NNSA's Weapons Activities 
for infrastructure enhancement, life extension programs, and enhanced 
stockpile stewardship. The DOD also transferred almost $1.1 billion to 
Naval Reactors to support reactor design and development for the next 
generation ballistic missile submarine.
    The President's budget request, if appropriated, will fund:

        <bullet> Design and initial construction of the Chemistry and 
        Metallurgy Research Replacement Nuclear Facility at Los Alamos;
        <bullet> Design and initial construction of the Uranium 
        Processing Facility at Oak Ridge;
        <bullet> A sustainable plutonium pit manufacturing capacity at 
        the PF-4 facility at Los Alamos;
        <bullet> Restoration of full production rates for the W76 SLBM 
        warhead by the end of fiscal year 2013 to meet Navy 
        requirements;
        <bullet> A life extension program study and follow-on 
        activities for the B61 bomb that meet safety, security, and 
        reliability requirements and DOD timelines;
        <bullet> Initiation of a study of life extension program 
        options for the W78 ICBM warhead; and
        <bullet> A revitalized warhead surveillance effort and 
        associated science and technology support.

    21. Senator McCain. Dr. Miller and Mr. D'Agostino, can you confirm 
that DOE will not reduce its future years spending requests for the 
NNSA as a result of the DOD contribution?
    Dr. Miller. The administration, including both DOE and DOD, is 
committed to sustaining full funding for the NNSA. Our plan, described 
in the report submitted in response to the NDAA for Fiscal Year 2010, 
section 1251, calls for sustained investments at higher levels so that 
over the next decade the United States will have invested about $80 
billion in the NNSA nuclear weapons activities. This plan shows 
investments for NNSA continuing to grow above the fiscal year 2011 
request; DOE is committed to continuing to make spending requests that 
represent full and adequate funding.
    Mr. D'Agostino. The DOD funding contribution to NNSA is not 
expected to be an annual practice. The NNSA will submit budget requests 
in the future that reflect NNSA needs. The NNSA will not rely on 
supplementary funding from other agencies to execute its mission.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                               deterrence
    22. Senator Chambliss. General Chilton, you comment in your written 
statement that, ``The nuclear enterprise remains, today and for the 
foreseeable future, the foundation of U.S. deterrence strategy and 
defense posture.'' I am pleased to hear you say that because, with all 
the talk about nuclear weapons over the last several months, the 
overwhelming emphasis has been on reducing their number, and perhaps 
rightfully so. However, the fact remains that our nuclear weapons have 
served an extremely valuable purpose for decades, and that purpose is 
to guarantee the security of the United States and our allies, and no 
other weapon in our arsenal provides that security the way nuclear 
weapons do. I hope your perspective is not lost on those in the 
administration making these recommendations. What are your comments on 
this issue?
    General Chilton. I am confident that this perspective has not been 
lost. The NPR delineates this perspective well and if the concepts 
articulated in it are carried out, especially regarding the nuclear 
infrastructure, I believe our nuclear enterprise and the associated 
deterrence and assurance it provides will remain strong and credible.

                    nuclear nonproliferation treaty
    23. Senator Chambliss. Secretary Tauscher and Dr. Miller, under the 
declaratory policy outlined in the new NPR, would the United States 
have been able to make the same threats directed against Saddam 
Hussein's Iraq with regards to their potential employment of chemical 
and biological weapons against Israel or Saudi Arabia during the 
Persian Gulf War, given that Iraq was a signatory to the Nuclear 
Nonproliferation Treaty (NNPT) and that we believed, at that time, that 
Iraq was in compliance with their NNPT obligations?
    Secretary Tauscher and Dr. Miller. Yes, the United States would 
have been able to threaten possible use of nuclear weapons against 
Saddam Hussein's Iraq at the time of the Gulf War. The revised Negative 
Security Assurance described in the NPR is applicable to non-nuclear 
weapons states that are party to the NPT and in compliance with their 
nuclear nonproliferation obligations. This was not the case for Iraq. 
The joint resolution passed by the U.S. Congress on January 1991 
authorizing the use of military force against Iraq specifically noted 
Iraq's nuclear weapons program as a grave threat.

    24. Senator Chambliss. General Chilton, in your responses to 
advanced policy questions for your nomination to be Commander of 
STRATCOM in 2007, you stated the following: ``A credible U.S. nuclear 
deterrent . . . assures allies that the United States will deter, 
prevent, or limit damage to them from adversary attacks. This removes 
incentives for many of them to develop and deploy their own nuclear 
forces, thereby encouraging nonproliferation.'' Do you still agree with 
your statement of 2007 and, in your opinion, does our most recent NPR 
continue to assure allies that the United States will deter, prevent, 
or limit damage to them from adversary attacks?
    General Chilton. Yes, I still agree with that statement and that 
the most recent NPR supports it. If the concepts articulated in the NPR 
are carried out, especially regarding the nuclear infrastructure, I 
believe our nuclear enterprise and the associated deterrence and 
assurance it provides will remain strong and credible.

          u.s. and russian intercontinental ballistic missiles
    25. Senator Chambliss. Secretary Tauscher and Dr. Miller, how does 
de-MIRVing of the U.S. ICBMs increase stability if, in turn, the 
Russians do not do the same?
    Secretary Tauscher and Dr. Miller. The increased stability achieved 
by removing Multiple Independently-targetable Reentry Vehicle 
capability (de-MIRVing) from U.S. ICBMs is not dependent on Russia de-
MIRVing its nuclear force. Stability is increased because single 
warhead ICBMs in geographically dispersed hardened silos require an 
adversary contemplating attack to use more warheads in attacking ICBMs 
than the number of U.S. warheads they would destroy.

               b-52 under strategic arms reduction treaty
    26. Senator Chambliss. Dr. Miller and General Chilton, the NPR 
recommends modifying some of our B-52s into conventional only 
platforms. How many B-52s does DOD plan to modify and to what extent 
might it be necessary to disable bombers at the Air Force boneyard at 
Davis-Monthan Air Force Base to ensure they are not deployable and do 
not count under the New START?
    Dr. Miller. Force structure plans under the New START treaty call 
for up to 60 deployed nuclear-capable heavy bombers, including 18 
deployable B-2s for the nuclear mission. The Air Force currently has 76 
operational B-52Hs in the strategic nuclear force structure. The Air 
Force will study options for the number of B-52s to  convert  to  a  
conventional  only  role. The  Department  plans  to  eliminate  51  B-
52Gs, 12 B-1Bs, and 13 B-52Hs currently stored at Davis-Monthan Air 
Force Base once the New START treaty enters into force.
    General Chilton. NPR guidance is to retain both the B-2 and B-52, 
and convert some of the latter to a conventional-only role to meet the 
New START treaty central limits for deployed and non-deployed strategic 
delivery systems. No final decision has been made on force structure. 
We are working with OSD, the Joint Staff, and the Services to identify 
options and will report at the earliest opportunity. It is likely that 
some number of the platforms previously accountable under START I (e.g. 
bombers at the Aerospace Maintenance and Regeneration Group facility at 
Davis-Monthan AFB, AZ) will be eliminated. The conversion of a portion 
of the B-52 force to conventional-only will allow the Air Force to 
retain sufficient dual-capable B-52s to support conventional 
requirements while providing extended nuclear deterrence to our allies, 
deter our adversaries, and maintain a hedge against future uncertainty.

                          new nuclear warheads
    27. Senator Chambliss. Secretary Tauscher and Dr. Miller, the NPR 
states clearly that the United States will not develop any new nuclear 
warheads. If developing a new nuclear warhead could offer a means of 
making our nuclear weapons more secure, reliable, effective, and safe, 
and doing so did not create a warhead with any new military 
capabilities, why would the administration not consider doing so?
    Secretary Tauscher and Dr. Miller. We are confident that the full 
range of life extension programs--refurbishment of existing warheads, 
reuse of nuclear components from different warheads, and replacement of 
nuclear components--will allow the United States to sustain a safe, 
secure, and effective nuclear arsenal. This policy to not develop new 
nuclear warheads means that life extension programs will only use 
nuclear components based on previously tested designs, and the 
laboratory directors have stated: ``We believe that the approach 
outlined in the NPR, which excludes further nuclear testing and 
includes the consideration of the full range of life extension options 
(refurbishment of existing warheads, reuse of nuclear components from 
different warheads, and replacement of nuclear components based on 
previously tested designs), provides the necessary technical 
flexibility to manage the nuclear stockpile into the future with an 
acceptable level of risk.''
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                nuclear enterprise sustainment projects
    28. Senator Vitter. General Chilton, you mentioned the need to move 
forward with nuclear enterprise sustainment projects. Among these you 
specifically mention the need to maintain a safe, effective stockpile, 
which I take to mean, not just the nuclear warheads but the missiles as 
well, and extend production of the Minuteman III and begin studies to 
develop a replacement ICBM for the Minuteman III. In your opinion, does 
the President's decision to cancel National Aeronautics and Space 
Administration's (NASA) Constellation Program and move to reliance on 
commercial providers for launch vehicles for manned space flight, which 
effectively removes NASA as a customer for large rockets and solid 
rocket motors, have a negative impact on our Nation's ability to move 
forward with one or all of those nuclear enterprise sustainment 
projects you mentioned?
    General Chilton. NASA has always been a very large part of the 
solid rocket motor industrial base. We anticipate the Constellation 
program cancellation will impact the cost to recapitalize our Air Force 
and Navy ballistic missile forces in the future; however, the extent of 
this impact is unknown at this time. We look forward to the results of 
Secretary Carter's Acquisition, Technology, and Logistics (AT&L)-led 
task force study on this issue.

    29. Senator Vitter. General Chilton, it is my understanding that 
the President's plans to remove NASA as a primary customer for large 
rockets and solid rocket motors would lead to an increase in costs for 
DOD missiles and solid rocket motors, jeopardize the viability of 
single-source suppliers for certain components used on both space 
launch vehicles and ICBMs, and also put us in great risk of losing the 
remainder of our Nation's already greatly-reduced large rocket and 
solid rocket motor workforce, leaving us with few, if any, of the 
engineers who know how to build and maintain these complex machines. Do 
you agree with those assessments? If so, could you elaborate on them in 
detail?
    General Chilton. Until the OSD/AT&L study is complete, it is 
premature to speculate on the extent of the impact to our industrial 
base and intellectual capital as the solid rocket motor industry 
adjusts to the Constellation program cancellation. We look forward to 
the results of Secretary Carter's AT&L-led task force study on this 
important issue. I do think it is important that prudent investments 
are made in propulsion to ensure we can meet our Nation's strategic 
needs.

    30. Senator Vitter. General Chilton, in your estimation, do the 
President's plans for NASA present a direct challenge to and 
potentially jeopardize the viability of our Nation's nuclear deterrent, 
specifically to our ICBM fleet?
    General Chilton. We do not believe the President's decision to 
terminate the Constellation program presents a direct challenge to the 
viability of our ICBM force. The Air Force is completing a series of 
programs to sustain the ICBM force and we are confident Minuteman III 
is viable and sustainable through 2030. Looking ahead, we anticipate 
new challenges across the entire industrial base which will impact both 
the capacity and costs associated with supporting the Minuteman III in 
the future. A viable solid rocket motor industrial base is a critical 
part of the broader industrial base needed to maintain a safe, secure, 
and effective ICBM force and we look forward to the results of 
Secretary Carter's AT&L-led task force study on this important issue.

                      u.s. and chinese stockpiles
    31. Senator Vitter. Secretary Tauscher, Dr. Miller, General 
Chilton, and Mr. D'Agostino, the NPR expresses the intention to further 
reduce our nuclear deterrent below the START follow-on levels. The NPR 
also highlights the lack of transparency of China's nuclear program. Is 
there a concern that further U.S. reductions could prompt China to 
increase their nuclear stockpile?
    Secretary Tauscher and Dr. Miller. China's military modernization 
programs, including its nuclear modernization, are a significant 
concern which we watch closely. However, China presently does not 
appear to be seeking parity with either the United States or Russia, 
and its nuclear arsenal remains much smaller than the U.S. and Russian 
arsenals. As a declared nuclear weapon state under the NPT, China's 
restraint in its nuclear modernization is important to the nuclear 
disarmament and global nonproliferation efforts. We look to China to be 
more transparent about its strategic programs and to show restraint in 
them.
    As the United States and Russia conduct bilateral negotiations to 
reduce nuclear arsenals further, the United States will seek greater 
transparency and assurances from China that it will restrain its 
nuclear modernization.
    General Chilton. Until the scope of the ``further reductions'' is 
understood, it is difficult to speculate on how China would view 
further reductions. However, I believe that whether or not China 
chooses to increase their arsenal is dependent upon a much broader 
geopolitical context than just the size of the U.S. and Russian 
arsenals.
    Mr. D'Agostino. The NPR states,

         ``The United States and China are increasingly interdependent 
        and their shared responsibilities for addressing global 
        security threats, such as WMD proliferation and terrorism, are 
        growing. The United States welcomes a strong, prosperous, and 
        successful China that plays a greater global role in supporting 
        international rules, norms, and institutions.
         ``At the same time, the United States and China's Asian 
        neighbors remain concerned about the pace and scope of China's 
        current military modernization efforts, including its 
        quantitative and qualitative modernization of its nuclear 
        capabilities. China's nuclear arsenal remains much smaller than 
        the arsenal of Russia and the United States. But the lack of 
        transparency surrounding its programs--their pace and scope as 
        well as the strategy and doctrine guiding them--raises 
        questions about China's future strategic intentions.''
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                    nuclear nonproliferation treaty
    32. Senator Collins. Secretary Tauscher, the proposed Negative 
Security Assurance policy states that the United States will not use 
nuclear weapons against non-nuclear countries which have signed the 
NNPT and are in compliance with the NNPT. Who decides if a country is 
in compliance with the NNPT?
    Secretary Tauscher. As part of the NPR, the United States 
strengthened its longstanding Negative Security Assurance by declaring 
that the United States will not use or threaten to use nuclear weapons 
against non-nuclear weapons states that are party to the Nuclear 
Nonproliferation Treaty (NPT) and in compliance with their nuclear 
nonproliferation obligations, which would include, inter alia, a 
state's obligations under its safeguards agreement with the 
International Atomic Energy Agency (IAEA).
    The United States renders its own independent compliance judgments. 
In this regard, we note that, pursuant to section 403 of the Arms 
Control and Disarmament Act, as amended, the administration submits a 
detailed annual assessment of other nations' adherence to their NPT 
obligations and other nuclear nonproliferation agreements or 
commitments to which the United States is a participating state.

    33. Senator Collins. Secretary Tauscher, is the administration 
prepared to make assessments of each country's compliance with the NNPT 
separately from the IAEA, or will we rely on the judgments of the IAEA 
Board of Governors, which currently includes Russia, China, Venezuela, 
and Cuba in its membership, to determine which countries are in 
compliance with the NNPT?
    Secretary Tauscher. The Board of Governors of the IAEA plays a role 
in determining noncompliance with safeguards agreements, but not 
regarding the NPT itself. Although our compliance findings may be 
informed by information from other entities, such as the IAEA, the 
United States renders its own compliance judgments. In this regard, we 
note that, pursuant to section 403 of the Arms Control and Disarmament 
Act, as amended, the administration submits a detailed annual 
assessment of other nations' adherence to their NPT obligations and 
other nuclear nonproliferation agreements or commitments to which the 
United States is a participating state.

    34. Senator Collins. Secretary Tauscher, if the United States 
relies on the assessment of the IAEA, are we putting the countries 
which sit on the IAEA Board of Governors in a position to dictate how 
we can respond to certain attacks?
    Secretary Tauscher. Although our compliance findings may be 
informed by information from other entities such as the IAEA, the 
United States renders its own independent compliance judgments, 
including with respect to compliance with IAEA safeguards agreements.

    35. Senator Collins. Secretary Tauscher, if the United States will 
establish its own assessment of each country's compliance with the 
NNPT, does this undermine U.S. credibility in working with our allies 
and other nations in reducing nuclear proliferation?
    Secretary Tauscher. No. The United States has been assessing other 
nations' compliance for as long as the NPT has been in force. That 
practice has in no way undermined our credibility in working with our 
allies and other nations in reducing nuclear proliferation.

    [The Nuclear Posture Review Report follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    [Whereupon, at 11:51 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
